   November 1, 2004




Acquisition
Pueblo Chemical-Agent-Destruction
Pilot Plant Project
(D-2005-009)




        This special version of the report has been revised to omit
     contractor proprietary and Government predecisional information.




                 Department of Defense
             Office of the Inspector General
Quality                       Integrity                   Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ACWA                  Assembled Chemical Weapons Assessment (now Alternatives)
ADM                   Acquisition Decision Memorandum
AT&L                  Acquisition, Technology, and Logistics
ATSD (NCB)            Assistant to the Secretary of Defense for Nuclear and Chemical
                        and Biological Defense Programs
CAIG                  Cost Analysis Improvement Group
DATSD (CD&TR)         Deputy Assistant to the Secretary of Defense for Chemical
                        Demilitarization and Threat Reduction
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
OSD                   Office of the Secretary of Defense
PCAPP                 Pueblo Chemical-Agent-Destruction Pilot Plant
WHEAT                 Water Hydrolysis of Explosives and Agent Technology
                                  INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 222024704




                                                                           November 1,2004
MEMORANDUM FOR ACTING UNDER SECRETARY OF DEFENSE FOR
               ACQUISITION, TECHNOLOGY, AND LOGISTICS
SUBJECT: Report on the Pueblo Chemical-Agent-Destruction Pilot Plant Project
         (Report No. D-2005-009)

        We are providing this report for your information and use. We performed this
audit in response to your request concernin the acquisition and contract management of
                                             f
the Pueblo Chemical-Agent-Destruction Pi ot Plant Project. We considered management
comments on a draft of this report in preparing the find report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore. no additional comments are
required.
         We appreciate the courtesies extended to the staff Questions should be directed
to Mr. Bruce A. Burton at (703) 604-9071 @SN 664-9071), Mr. John E. Meling at
(703) 604-9091 @SN 664-9091), or Mr. Rodney D. Britt at (703) 604-9096
@SN 664-9096). See Attachment J for the report distribution. The team members are
listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:


                                   %y&       Mary L. Ugone
                                    Assistant Inspector General
                            for Acquisition and Technology Management




This spedd vereion of tbe repert bas been rtvked to omit Cobtractor proprietary and Government
predecisiond informatron.
                Office of the Inspector General of the Department of Defense
Report No. D-2005-009                                                                   November 1, 2004
      (Project No. D2004AM-0180)

                 Pueblo Chemical-Agent-Destruction Pilot Plant Project

                                           Executive Summary

Who Should Read This Report and Why? DoD program officials who oversee and
manage chemical weapons disposal should read this report because it discusses lessons
learned from implementing the acquisition process for the Pueblo Chemical-Agent-
Destruction Pilot Plant (PCAPP) project.
Background. The Acting Under Secretary of Defense for Acquisition, Technology, and
Logistics requested an audit of the PCAPP project because of his concern over the increase
in the size and life-cycle cost of the planned facility. In his memorandum, the Acting Under
Secretary requested that we determine deficiencies in the PCAPP project’s acquisition
process and the acquisition lessons to be learned, and identify actions to ensure compliance
with the congressional certification required by Public Law 105-261. In addition, the Acting
Under Secretary asked whether the PCAPP project, as currently designed, is at risk of not
meeting the Chemical Weapons Convention Treaty’s (the Treaty) extended destruction
deadline of April 29, 2012.
Public Law 104-208, “National Defense Appropriations Act for Fiscal Year 1997,”
September 30, 1996, directed that DoD conduct a pilot program to identify and demonstrate
alternatives to the baseline incineration1 process and establish the position of Program
Manager for Assembled Chemical Weapons Alternatives. Later, Public
Law 105-261, “National Defense Authorization Act for Fiscal Year 1999,”
October 17, 1998, directed that the Under Secretary of Defense for Acquisition, Technology,
and Logistics certify to Congress that the selected alternative technology was as safe and
cost-effective as incineration for disposing of assembled chemical munitions and was
capable of completing the destruction in accordance with the Treaty.
In September 2002, the Program Manager, through the contracting officer, awarded a
$166.8 million contract to Bechtel National, Inc., San Francisco (Bechtel), to design the
PCAPP facility. In January 2003, the Under Secretary certified to Congress that the
neutralization of the assembled chemical munitions followed by biological-treatment2 was
as safe and cost-effective as incineration and that the entire stockpile could be destroyed by
2010 for $1.5 billion in FY 2002 constant dollars. In May 2004, the Program Manager
informed the Acting Under Secretary that, based on Bechtel’s 30 percent design submission,
the life-cycle cost estimate had escalated to $2.65 billion, the estimated completion of
operations to August 2011, the square footage of main processing buildings to
273,000 square feet, and the number of employees to approximately 890.


1
    The baseline incineration method uses remote control equipment to disassemble and separate the explosive
    components, and mechanically open the munitions or bulk containers to expose and drain the agent. After
    the agent is drained, it is destroyed in an incinerator.
2
    Neutralization followed by biological-treatment uses hot water to neutralize the chemical agent, effectively
    destroying the chemical agent. Ordinary bacteria then consume the neutralization by-product.
Results. The Program Manager and contracting officer did not place controls in the contract
over the life-cycle cost of the PCAPP facility design, which gave Bechtel the opportunity to
propose a larger, more heavily staffed facility; the contracting approach did not include
reconfiguration acceleration as directed in the Under Secretary of Defense’s Acquisition
Decision Memorandum because the State of Colorado’s environmental laws did not support
both accelerated permits and reconfiguration; the systems contractor should not have
handled public outreach and involvement responsibilities because of indications of a conflict
of interest; and the Program Manager and contracting officer did not ensure that Bechtel
prepared engineering planning documentation for use in controlling the design process and
for the effective operation of the facility when constructed. Further, the audit team
determined that Bechtel developed a design for the PCAPP facility that was not executable,
did not meet the intent of the Under Secretary’s certification to Congress in January 2003,
and is at risk that agent destruction will not be completed by the Treaty’s destruction date.
Summary of Recommendations. We recommend that the Acting Under Secretary of
Defense for Acquisition, Technology, and Logistics recertify the PCAPP project to
Congress; revise the Acquisition Decision Memorandum to the Program Manager,
emphasizing the need to keep the PCAPP project within the baseline costs; and require the
Program Manager to attend the statutorily required Program Manager course at the Defense
Acquisition University. We recommend that the Program Manager for Assembled Chemical
Weapons Alternatives use the industrial engineering analysis to be performed by the
National Research Council to determine the appropriate square footage needed for the
facility; remove public outreach and involvement responsibilities from the contract with
Bechtel; develop a systems engineering plan for the milestone decision authority’s approval;
request that the Contracting Officer, Army Field Support Command, revise the contract
scope of work to require the systems contractor to submit an acquisition logistics plan and a
software management plan for approval; and task Bechtel to adhere to its contract
requirements to submit configuration management, quality management, and information
assurance and systems security plans.
Management Comments. We received comments from the Assistant to the Secretary of
Defense for Nuclear and Chemical and Biological Defense Programs, responding for the
Acting Under Secretary of Defense for Acquisition, Technology, and Logistics, and the
Program Manager for Assembled Chemical Weapons Alternatives. The Assistant to the
Secretary of Defense agreed that a new certification to Congress and a revised Acquisition
Decision Memorandum were needed. He also stated that the Program Manager should be
issued a waiver for the statutory training requirements. The Program Manager did not agree
that the National Research Council was performing an industrial engineering analysis, that
the PCAPP public outreach and involvement work should be removed from the contract
with Bechtel, or that acquisition logistics and software management plans were needed.
However, he did concur with the recommendation to submit a systems engineering plan to
the Acting Under Secretary for approval. Although not required to respond to
recommendations addressed to the Program Manager, the Assistant to the Secretary of
Defense agreed that the PCAPP public outreach and involvement work should be removed
from the contract with Bechtel, and stated that steps were being taken to terminate the public
involvement contract with the systems contractor. He further concurred that an industrial
engineering analysis, and systems engineering, acquisition logistics and software
management plans were needed. We considered editorial comments that he provided in
preparing the final report and changed the text where appropriate. See Part I of the report
for a discussion of management comments and Part III of the report for the complete text of
the comments.
Audit Response. Although the comments of the Program Manager for Assembled
Chemical Weapons Alternatives were not fully responsive to the recommendations, actions
planned by the Assistant to the Secretary of Defense for Nuclear and Chemical and
Biological Defense Programs were responsive to those recommendations. Accordingly, no
further comments are required in response to the final report.
                                              ii
                              Table of Contents

Executive Summary                                                   i
Background                                                          1
Objectives                                                          3
Part I. Answers to the Request of the Acting Under Secretary
        of Defense for Acquisition, Technology, and Logistics       5
               - The Government’s Contractual Relationship          6
               - The Propriety of the Public Affairs Contract       9
               - Accelerated Contracting Approach                  12
               - Structure of the Performance-Based Contract       15
               - Elimination of Department-Approved Acceleration   17
               - Growth in Staffing Levels and Processing Area     20
               - Acquisition Lessons Learned                       24
               - Congressional Certification                       34
               - Answer to Additional Audit Objective              37
               - Recommendations, Management Comments, and
                   Audit Response                                  40
                                Table of Contents

Part II. Attachments                                                        47
      A. Scope and Methodology                                              48
      B. Prior Audit Coverage                                               53
      C. Request from the Acting Under Secretary of Defense
           for Acquisition, Technology, and Logistics                       55
      D. Detailed Background Information                                    56
      E. Evolution of Events for the Pueblo Chemical-Agent-
           Destruction Pilot Plant Project                                  59
      F. Systems Engineering                                                65
      G. Acquisition Decision Memorandum                                    78
      H. Public Law 104-208                                                 79
      I. Public Law 105-261                                                 80
      J. Report Distribution                                                82
Part III. Management Comments                                               84
           Assistant to the Secretary of Defense for Nuclear and Chemical
             and Biological Defense Programs                                85
           Program Manager for Assembled Chemical Weapons
             Alternatives                                                   91
                                                                   Background

The Assembled Chemical Weapons Assessment (ACWA) Program was established by Public Law 104-208,
“National Defense Appropriations Act for Fiscal Year 1997,” September 30, 1996, which directed that a pilot
program be conducted to identify and demonstrate not less than two alternatives to the baseline incineration
process for demilitarizing assembled chemical weapons at the Pueblo and Blue Grass chemical depots. The
Defense Acquisition Executive approved neutralization followed by biological-treatment (neut-bio) as the
technology to safely dispose of the chemical weapons stockpile at Pueblo, Colorado, in accordance with the
Chemical Weapons Convention Treaty (the Treaty), which required the United States to declare and destroy its
chemical weapons by April 29, 2007 (or April 29, 2012, if granted a 5-year extension).1 In July 2002, the
Defense Acquisition Executive approved a Fast Path2 concept to dispose of munitions at Pueblo. The Fast Path
concept was based on a life-cycle cost estimate of $1.6 billion and completion of operations by April 2010.

Contract for the Pueblo Chemical-Agent-Destruction Pilot Plant Project. In September 2002, the Program
Manager for Assembled Chemical Weapons Assessment, through the contracting officer, awarded a cost-
reimbursable, task order contract to Bechtel National, Inc., San Francisco, California (Bechtel), for the design-
through-closure of the Pueblo Chemical-Agent-Destruction Pilot Plant (PCAPP) project. The Program Manager
selected Bechtel based on best value, where the technical approach ranked as the highest evaluation factor and
cost as the least important factor. The contract included a performance-based statement of work with minimum
requirements for the systems contractor to control the size, cost, or staffing level of the facility. The contract
required Bechtel to submit the initial design, at 30 percent completion of the facility design, and the intermediate
design, at 60 percent completion of the facility design, to the Government for review and approval.

______________________________________
1 In accordance with the Treaty, disposal of 100 percent of the U.S.-declared, chemical weapons stockpile must be completed no later than 10 years
  after entry into force, or April 29, 2007. Treaty provisions allow for a one-time, 5-year extension to this deadline. If granted, the time available for
  disposal would be extended to April 29, 2012.
2 The Fast Path concept is a combination of neutralization technologies to show that a neutralization technology operations schedule could be accelerated to

   meet the requirements of the Treaty and to reduce cost.
                                                                                                                                                               1
                                                           Background (cont’d)

PCAPP Life-Cycle Cost Estimates. In January 2003, the Under Secretary of Defense for Acquisition,
Technology, and Logistics (AT&L) used the Fast Path estimate to certify to Congress that the entire Pueblo
stockpile would be destroyed for $1.5 billion3 by 2010. However, on May 28, 2004, the Program Manager
submitted a Program Office life-cycle cost estimate of $2.65 billion to the Assistant to the Secretary of Defense for
Nuclear and Chemical and Biological Defense Programs (ATSD [NCB]) based on Bechtel’s 30 percent design
submitted in January 2004. Bechtel did not submit its $2.3 billion life-cycle cost estimate for the PCAPP project
until August 23, 2004.
Path Forward for the PCAPP Project. In April 2004, the ATSD (NCB) directed the Program Manager to
pursue a revised design and conduct supporting analysis because of concerns about the PCAPP project being
fiscally unexecutable. In response to the direction, the Program Manager requested Bechtel to submit a proposal
to address potential design changes, and awarded Mitretek Systems, a support contractor, a task to independently
assess Bechtel’s 30 percent design. The Program Manager also tasked the National Research Council
subcommittee to review Mitretek Systems’s independent assessment. On May 14, 2004, the Acting Under
Secretary of Defense (AT&L) requested that the Office of the Inspector General of the Department of Defense
conduct an audit of the PCAPP project as discussed on page 3. Subsequently, on June 28, 2004, the ATSD (NCB)
issued a memorandum to the Program Manager directing him to work toward keeping costs of the PCAPP facility
within the cost that the Under Secretary of Defense (AT&L) certified to Congress in January 2003 and to complete
destruction of the Pueblo chemical weapons stockpile before the Treaty’s extended destruction date of
April 29, 2012.

See Attachment D for detailed background information on the Chemical Demilitarization Program and
Attachment E for the evolution of events on the PCAPP project.

_______________________________________________
3   The $1.5 billion as certified to Congress by the Under Secretary of Defense (AT&L) is in current-year dollars and is equivalent to the $1.6 billion Program
    Office life-cycle cost estimate, which is in then-year dollars.
                                                                                                                                                                  2
                                              Objectives

The Acting Under Secretary of Defense for Acquisition, Technology, and Logistics
  requested that we determine:

     •   Deficiencies in the PCAPP acquisition process and specifically address the following:

           1. Has the Government’s contractual relationship with the systems contractor contributed
              to the growth in the life-cycle cost of the facility?
           2. Was the systems contractor’s handling of the public affairs contract proper?
           3. Has the accelerated contracting approach used for the facility been effective in controlling
              cost growth?
           4. Did the structure of this performance-based contract inadvertently provide the contractor
               with an incentive to propose a larger and more heavily staffed facility?
           5. Did this contracting approach operate to eliminate Department-approved acceleration efforts?
           6. What are the reasons for the growth in staffing levels and processing area?

     •   What acquisition lessons can be learned from the experience?

     •   What actions can be identified to ensure the Department complies with the intent of the
         congressional certification required by Public Law 105-261?



                                                                                                             3
                                  Objectives (cont’d)


Additional Information Requested by the Acting Under Secretary of Defense for
  Acquisition, Technology, and Logistics:

   On July 26, 2004, the audit team briefed the Acting Under Secretary of Defense (AT&L) on
   the preliminary results of the PCAPP project audit. At that time, the Acting Under
   Secretary of Defense (AT&L) requested that the audit team identify in the audit report
   whether the PCAPP facility, as currently designed, was at risk of not meeting the Treaty’s
   extended destruction deadline of April 29, 2012.




                                                                                                4
             Part I




  Answers to the Request of the
Acting Under Secretary of Defense
  for Acquisition, Technology,
         and Logistics


                                    5
                    The Government’s Contractual Relationship

1. Has the Government’s contractual relationship with the systems contractor contributed to
    the growth in the life-cycle cost of the facility?

Answer:
    We did not find any evidence of an inappropriate personal relationship between the Program Manager or the
    contracting officer and Bechtel personnel. However, the Program Manager and the contracting officer (the
    Government) did not adequately define in the contract the project requirements, reviews, and approvals that
    would provide controls over the life-cycle cost growth of the PCAPP project.

Criteria:

    DoD Directive 5000.1, “The Defense Acquisition System,” May 12, 2003, provides guidance on program
    managers’ responsibilities in considering life-cycle costs and affordability while managing acquisition
    programs. Specifically:

            - Program managers shall consider supportability, life-cycle costs, performance, and schedule equally
    in making program decisions. Planning for operations and support and the estimation of total ownership costs
    shall begin as early as possible.

            - Approved program baseline parameters shall serve as control objectives.


                                                                                                                  6
             The Government’s Contractual Relationship (cont’d)

Contract Terms:
   The contract terms contributed to the project’s cost growth because:

    •   The Program Manager and the contracting officer issued a request for proposal for a performance-based
        contract that was not fully consistent with the requirements of the Acquisition Decision Memorandum
        (ADM) and DoD Regulations. Specifically, the Program Manager stated that he did not require the
        enhanced reconfiguration concept, as approved in the ADM, to be a design constraint in the contract
        statement of work because he believed that the ADM did not restrict the design of the PCAPP facility.
        Further, he stated that the request for proposal had been approved by the Office of the Secretary of
        Defense (OSD).

    •   The contracting officer did not place language in the contract statement of work that required Bechtel to
        design the PCAPP facility within the cost constraints that were established by the earlier
        system-and-process analysis performed by the OSD Cost Analysis Improvement Group (CAIG)
        and the National Research Council.

    •   The Program Manager and the contracting officer reviewed and approved key project information that
        Bechtel provided, which was based on contractual requirements that deviated from the terms of the
        ADM, and the Program Manager did not first seek approval from the milestone decision authority.

    •   Bechtel was allowed to submit the PCAPP facility 30 percent design to the Government for evaluation
        in January 2004 without being required to submit a life-cycle cost estimate also. The Program Manager
        accepted the design after Bechtel addressed 1,168 Government comments.



                                                                                                                    7
              The Government’s Contractual Relationship (cont’d)

Conclusion:
    The Program Manager and the contracting officer awarded a contract to Bechtel that did not emphasize
    cost in the design development. As a result, Bechtel did not consider cost constraints in designing the
    facility, which caused the current life-cycle cost estimate to escalate to $2.65 billion from the $1.5 billion
    that was certified to Congress in January 2003.

Management Comments on the Conclusion and Audit Response:

    Program Manager for Assembled Chemical Weapons Alternatives Comments. The Program Manager
    for Assembled Chemical Weapons Alternatives nonconcurred with the conclusion, stating that cost was one
    of the five major factors considered in the best value source selection. He stated that pursuant to the
    Congressional mandate to maximize the protection of the workforce, public, and environment, and the ADM
    direction to accelerate stockpile destruction, cost was not considered the most important factor. Furthermore,
    the Program Manager stated that the $1.5 billion certification to Congress made in accordance with Public
    Law 105-261, was a point of comparison and placeholder based on assumptions considered during the
    Defense Acquisition Board process. He also stated that the certification was not coordinated with him, and
    that he would have nonconcurred with the $1.5 billion cost reference.

    Audit Response. The intent of Public Law 105-261 was for the Under Secretary of Defense (AT&L) to
    assure Congress that the alternative technology chosen for the stockpile destruction at Pueblo would be as
    cost-effective as incineration. Accordingly, the Under Secretary of Defense (AT&L) did certify to Congress
    in the certification that the accelerated neut-bio technology option would cost $1.5 billion and was as cost-
    effective as the $1.8 billion accelerated incineration option. Therefore, the Program Manager should have
    considered the $1.5 billion life-cycle cost as the approved program baseline parameter when structuring the
    contract statement of work to ensure that the Department remained in compliance with the certification.
                                                                                                                     8
                   The Propriety of the Public Affairs Contract

2. Was the systems contractor’s handling of the public affairs (outreach and involvement)
    contract proper?

Answer:
    The systems contractor should not handle the public affairs (outreach and involvement) contract because
    there are indications of a conflict of interest in safeguarding the interests of the Government.

Criteria:
    Federal Acquisition Regulation (FAR) 1.602-2, “Contracting Officer Responsibilities,” states that
    contracting officers are responsible for ensuring performance of all necessary actions for effective
    contracting and safeguarding the interests of the United States in its contractual relationships. In addition,
    FAR 9.5, “Organizational and Consultant Conflicts of Interest,” states that the contracting officer should
    prevent the existence of conflicting roles that might bias a contractor’s judgment.

Events:
    Before issuing the request for proposal for the PCAPP facility, the Program Manager, through the
    contracting officer, contracted public outreach to a third-party support contractor. In October 2003,
    subsequent to the contract award to Bechtel, the Program Manager decided to eliminate the use of the
    third-party support contractor and give Bechtel full responsibility of managing public outreach.


                                                                                                                     9
             The Propriety of the Public Affairs Contract (cont’d)

In the same month, October 2003, the Program Manager obtained approval from the Deputy Assistant to the
Secretary of Defense for Chemical Demilitarization and Threat Reduction (DATSD [CD&TR]) to increase
Bechtel’s responsibility for public involvement activities in Task Order Four of the contract. The public
outreach activities and public involvement were to be used as a pilot program to test the feasibility of using
systems contractors to perform certain public affairs responsibilities. Bechtel’s increased responsibilities
included managing the outreach program within the local community, developing and implementing a site-
specific public outreach and involvement strategy, and providing protocol support to the Program Manager.

The following occurred as a result of Bechtel’s handling the public affairs outreach and involvement
responsibilities in the contract.

 •   A Bechtel public involvement representative spoke on behalf of the Pueblo Chemical Depot and Chemical
     Stockpile Emergency Preparedness Project public outreach offices without consulting the Depot or Project
     representatives to ensure that the Government’s interests were accurately represented.
 •   A representative of the Office of the DATSD (CD&TR) stated that concern had existed within the OSD
     staff since November 2003 about the unauthorized disclosure of Government information to the public,
     including:

        - informing the U.S. congressional delegation that the ATSD (NCB) intended to perform an analysis
           of alternatives of the PCAPP design before the official memorandum was issued, and
        - informing the citizens of Pueblo, Colorado, of the December 2003 Program Budget Decision to
           realign $147 million from the ACWA Program to the Chemical Stockpile Disposal Program.

Bechtel public involvement representatives are a potential source of those disclosures because they may believe
that they have the authority to make disclosures on behalf of the Program Manager, as specified in the terms of
the PCAPP public affairs outreach and involvement responsibilities in the contract.
                                                                                                                  10
            The Propriety of the Public Affairs Contract (cont’d)

Conclusion:
   By directing the contracting officer to award the public outreach and involvement responsibility in the PCAPP
   contract to Bechtel, the Program Manager created a conflict of interest and provided inadequate safeguards to
   protect the interests of the Government. Assigning those responsibilities to Bechtel also created a perception
   that the contractor had control over information released and generated a situation that might bias the
   contractor’s judgment.

Management Comments on the Conclusion and Audit Response:
   Program Manager for Assembled Chemical Weapons Alternatives Comments. The Program Manager for
   Assembled Chemical Weapons Alternatives nonconcurred with the conclusion, stating that he did not share the
   interpretation that a conflict of interest or a perception of a conflict of interest existed. He further stated that
   the contract statement of work includes distinct guidance for the contractor to follow when performing public
   outreach activities, and that controls were placed on the systems contractor to specifically protect the interests
   of the Government. Additionally, the Program Manager stated that he directed the Government public affairs
   officer, in full coordination with the Pueblo Chemical Depot public affairs office, to provide continuous
   oversight of the contractor. He further stated that he believed that the systems contractor adhered to the terms
   of the contract that specifically restricted Bechtel public involvement representatives from providing any
   information to the public not previously cleared by Government officials.
   Audit Response. As previously stated in the report, contracting officers are responsible for safeguarding the
   interests of the United States in its contractual relationships and preventing the existence of conflicting roles
   that might bias or have the appearance of biasing a contractor’s judgment. Because a Bechtel public
   involvement representative spoke on behalf of Pueblo Chemical Depot public affairs offices and the OSD staff
   expressed concern that Bechtel public involvement representatives had potentially disclosed Government
   information to the public, a real or apparent conflict of interest exists. To remedy this condition, action needs
   to be taken to remove the systems contractor from handling public outreach and involvement in public affairs
   responsibilities.                                                                                                 11
                              Accelerated Contracting Approach

3. Has the accelerated contracting approach used for the facility been effective in controlling
    cost growth?

Answer:
    The accelerated contracting approach was useful in allowing the Program Manager, through the contracting
    officer, to award the contract to Bechtel in 3 months rather than the standard 12 to 14 months. However, the
    contract structure used for this facility was not effective in controlling cost growth.

Criteria:
    FAR 34.005-2 (b), “Mission-Oriented Solicitation,” requires the contracting officer to indicate in the
    solicitation, and explain when appropriate, the schedule, capability, and cost objectives and any known
    constraints in the acquisition. In addition, FAR 34.005-4, “Demonstration Contracts,” states that the
    contracting officer should provide contractors with operational test conditions, performance criteria, life-
    cycle cost factors, and any other selection criterion necessary for the contractors to prepare their proposals.

 Accelerated Contracting Approach:
    The contracting strategy that the Program Manager used for the PCAPP project was to quickly award one
    contract for all phases of the project to meet the schedule set forth in the Treaty. To meet the Treaty
    deadline, the Program Manager, through the contracting officer, awarded a performance-based task order
    contract that was cost-reimbursable. In making the award, the Program Manager ranked cost as the least
    important evaluation factor. Further, the request for proposal and the contract awarded did not impose
    parameters on the contractor to limit the size or cost of the facility designed or the staffing level needed to
    operate the facility.
                                                                                                                      12
                        Accelerated Contracting Approach (cont’d)

   The contract structure was not effective in controlling cost growth because:

           • The request for proposal did not establish cost objectives, provide known constraints or
              life-cycle cost factors, or establish a cost or funding profile ceiling for the PCAPP project.

           • The performance-based contract did not provide the contractor with parameters to limit the size or
              cost of the facility designed or the staffing level needed to operate the facility. The contract
              required Bechtel to base the size and staffing level of the PCAPP facility on the design it
              developed.

           • The Program Manager did not ensure that the contracting officer established effective incentives in
              the contract for the contractor to control facility costs. The incentives in the performance-based
              contract were 75 percent schedule incentives and 25 percent cost incentives.

           • The performance-based contract gave Bechtel the latitude to make design changes without
              considering the effects on the life-cycle costs for the PCAPP project.

Conclusion:
   The accelerated contract structure that the Program Manager used was not effective in controlling cost growth
   because it allowed Bechtel to prepare a design for the facility with more square footage and that required a
   larger staff, which led to an increase in the estimated life-cycle cost for the PCAPP project.



                                                                                                                   13
                         Accelerated Contracting Approach (cont’d)

Management Comments on the Conclusion and Audit Response:
   Program Manager for Assembled Chemical Weapons Alternatives Comments. The Program Manager
   for Assembled Chemical Weapons Alternatives nonconcurred with the conclusion, stating that there has been
   no substantive contract cost growth. He further stated that the accelerated contract structure allowed him to
   develop a mature cost estimate based on the systems contractor’s actual design. He also stated that the
   direction to accelerate destruction while maximizing the protection of the workforce, public, and environment
   increased the complexity of designing a first-of-a-kind facility. The Program Manager finally stated that the
   development of cost parameters or facility size limitations before development of a mature design was
   unreasonable.

   Audit Response. While there has been no substantive contract cost growth for the design task orders of the
   contract, there has been significant growth in the Program Office life-cycle cost estimate for the project, from
   $1.6 billion in July 2002 to $2.65 billion in May 2004. The project life-cycle cost growth resulted from the
   Program Manager and the contracting officer not imposing parameters on the contractor to limit the size or
   cost of the facility designed and the staffing level needed to operate the facility. As a result, Bechtel prepared
   a $2.65 billion design with more square footage and a larger staff, which is not fiscally executable and does
   not meet the intent of the certification that the Under Secretary of Defense (AT&L) submitted to Congress in
   January 2003.




                                                                                                                    14
                    Structure of the Performance-Based Contract

4. Did the structure of this performance-based contract inadvertently provide the contractor
    with an incentive to propose a larger and more heavily staffed facility?

Answer:
   As stated in the response to Question 3, the contract structure was not effective in controlling cost growth
   and, in fact, provided Bechtel with the opportunity to propose a larger and more heavily staffed facility.
   During the design phase, the proposed facility size and staffing level did not affect the amount of fixed and
   incentive fees that the contractor could earn. Although the fee structure has not been established for the
   construction phase, Bechtel could very well earn increased fixed and incentive fees with the larger facility
   size and higher staffing levels during the construction phase.

Contract Terms:
   The basic contract awarded to Bechtel outlined a general fee structure that contained fixed-fee and
   performance-based incentives that would be defined with the award of each specific project phase.

   For the design phase:

     •    The contracting officer awarded design Task Orders One and Two to Bechtel for $166.8 million. The
          design task orders included a $141.6 million fee-bearing target cost, a 10 percent fixed fee ($14 million),
          and a 5 percent incentive fee ($7 million).

     •    The $7 million incentive fee consisted of a 75 percent schedule incentive to meet Colorado State permit
          deadlines and a 25 percent cost incentive to complete the design phase under the $141.6 million
          fee-bearing target cost.
                                                                                                                    15
           Structure of the Performance-Based Contract (cont’d)

    •   The specific incentive-fee structures for future construction, systemization, pilot testing, operation, and
        closure phases have not yet been established.
Conclusion:
   The contract structure gave Bechtel the opportunity to prepare a facility design with more square footage and
   that required a larger staff. Before awarding performance-based contracts, contracting officers need to include
   adequate requirements, reviews, and approvals to provide the Government with controls over facility design
   and cost growth. The contracting officer has not defined or negotiated the fixed- and incentive-fee structure
   for the construction phase yet, but with increased construction costs, the fee amount would also most certainly
   increase.
Management Comments on the Conclusion and Audit Response:
   Program Manager for Assembled Chemical Weapons Alternatives Comments. The Program Manager for
   Assembled Chemical Weapons Alternatives nonconcurred with the conclusion, stating that the uncertainties
   and inherent risks for a first-of-a-kind neut-bio facility made it unreasonable to establish facility size or
   personnel limitations before completing the facility design. He further stated that those premature limitations
   could result in increased safety risks or an extended operations schedule. Additionally, the Program Manager
   stated that for internal control purposes, three separate reviews will be conducted to evaluate the initial,
   intermediate, and final design packages before the start of construction.
   Audit Response. We acknowledge that the Program Manager’s strategy was to place ownership and
   accountability on the systems contractor under a performance-based contracting approach. However, as
   previously stated, it was also the Program Manager’s responsibility to consider the life-cycle cost when
   structuring the terms of the performance-based contract to ensure that the project remained fiscally executable.
   Accordingly, the Program Manager and contracting officer should have included requirements in the contract
   statement of work to ensure adequate Government controls over facility design and cost growth.

                                                                                                                      16
                Elimination of Department-Approved Acceleration

5. Did this contracting approach operate to eliminate Department-approved acceleration
    efforts?
Answer:
    The contracting approach that the Program Manager used included source selection and environmental
    permit acceleration as directed in the ADM, but it did not include the concept of reconfiguration acceleration
    as directed in the ADM because the environmental laws of the State of Colorado did not support both
    accelerated permits and reconfiguration.

Acquisition Decision Memorandum:
    The ADM directed the Program Manager to accelerate the stockpile destruction process by:

        •     expediting source selection,
        •     optimizing the environmental permit process,
        •     reconfiguring the munitions, and
        •     working with the community and Federal, State, and local governments.

Program Manager Actions:

        •     Three of the four Department-approved acceleration efforts in the ADM were adequately pursued
              by the Program Manager, including expediting source selection, optimizing the environmental
              permit process, and working with the community and Federal, State, and local governments.
                                                                                                                 17
          Elimination of Department-Approved Acceleration
                               (cont’d)

•   The reconfiguration of the munitions acceleration option was not pursued because the environmental
    laws of the State of Colorado did not support both accelerated permits and reconfiguration. To
    reconfigure the munitions in a separate building from the main processing building, the systems
    contractor needed to obtain a full Resource Conservation and Recovery Act Part B permit, which,
    according to the Program Manager, could take up to 2 years.

•   The Program Manager did not inform the Under Secretary of Defense (AT&L) through OSD officials of
    the conflicting requirements in the ADM or seek direction and approval for the requirements that should
    have been pursued. Instead, to partially comply with the ADM and optimize the environmental permit
    process, the Program Manager opted to pursue a research, development, and demonstration permit in a
    staged approach, which would allow the pilot plant to be designed while necessary permits for
    construction were being obtained from the State.

•   Bechtel submitted the Stage I research, development, and demonstration permit to the Site Project
    Manager for review on October 14, 2003 and to the State for review in December 2003. The Colorado
    Department of Public Health and Environment issued the draft permit on April 9, 2004, and expected to
    issue the final permit in July 2004. Bechtel submitted the Stage II permit application to the Site Project
    Manager for review in May 2004.




                                                                                                            18
                  Elimination of Department-Approved Acceleration
                                       (cont’d)
Conclusion:

    The Program Manager and the contracting officer included the requirements for accelerating the permit
    process and working with the community and the Federal, State, and local governments as contract incentives
    in the request for proposal, but they did not include the requirement for reconfiguring the munitions because
    the environmental laws of the State of Colorado did not support both accelerated permits and reconfiguration.
    Before the Program Manager approved the exclusion of the process for reconfiguring the munitions in the
    facility design, he did not obtain approval from or advise the Under Secretary of Defense (AT&L) of the
    potential effect of the exclusion on the life-cycle costs of the facility.

Management Comments on the Conclusion and Audit Response:
    Program Manager for Assembled Chemical Weapons Alternatives Comments. The Program Manager
    for Assembled Chemical Weapons Alternatives nonconcurred with the conclusion, stating that the ADM did
    not explicitly require reconfiguration, but directed the Program Manager to complete any additional National
    Environmental Policy Act analyses necessary for reconfiguration of the munitions and other acceleration
    efforts as quickly as practicable. He further stated that his decision not to pursue enhanced reconfiguration of
    the munitions eliminated the lengthy Resource Conservation and Recovery Act Part B permit process early in
    the schedule, did not require the Under Secretary of Defense (AT&L) to be notified, and did not conflict with
    ADM directives.

    Audit Response. As previously stated, by optimizing the environmental permit process through a research,
    development, and demonstration permit rather than exploring the enhanced reconfiguration of the munitions
    under a Resource Conservation and Recovery Act Part B permit, the Program Manager partially complied
    with the ADM. However, because of the cost effect of not pursuing the enhanced reconfiguration of the
    munitions, the Program Manager should have notified the Under Secretary of Defense (AT&L) of his
    planned contract action and obtained the Under Secretary’s approval before continuing the project.        19
                  Growth in Staffing Levels and Processing Areas

6. What are the reasons for the growth in staffing levels and processing area?

Answer:

    Bechtel and the Program Manager explained that the PCAPP facility design increased in size because
    Bechtel:

        •     included three lines for processing to accelerate the destruction of munitions instead of the original
              two-line processing design.
        •     included reconfiguration of the munitions in the processing area because the environmental laws
              of the State of Colorado do not support enhanced reconfiguration of munitions under a research,
              development, and demonstration permit, and would require a full Resource Conservation and
              Recovery Act Part B permit.
        •     eliminated congestion around equipment in the main processing buildings for safety and
              maintenance purposes.
        •     incorporated lessons learned at other munitions destruction facilities to make closing the facility
              easier.
        •     added equipment to process secondary waste and dunnage simultaneously to more efficiently
              manage the project, thereby reducing the schedule for post-operations and closure.

    As a result, Bechtel estimates that increased staffing levels will be needed to handle the reconfiguration of
    the munitions and to operate the additional processing line and equipment.

                                                                                                                    20
             Growth in Staffing Levels and Processing Areas (cont’d)

Request for Proposal:
     The Program Manager and the contracting officer decided to use a performance-based contract and include a
     minimum number of requirements in the statement of work to provide the systems contractor with flexibility
     during the PCAPP facility design phase. Accordingly, the request for proposal did not include parameters to
     limit the square footage for the main processing buildings and the staffing levels. However, Bechtel’s Technical
     Proposal, which became part of the contract when Bechtel was awarded the systems contract for the PCAPP
     project, stated that:
         •     the Energetics Process Building, where munitions are unpacked and the fuses and bursters are
               removed, would be a 23,000 square foot building, and
         •     the Agent Processing Building, where the agent is removed from the munitions and neutralized,
               would be a 32,000 square foot building.
     The total square footage of the two main processing buildings proposed by Bechtel and included in the systems
     contract for the PCAPP project totaled 55,000 square feet.

Design Differences:
     The Fast Path concept that was approved by the Defense Acquisition Executive in the ADM was largely based
     on the original Water Hydrolysis of Explosives and Agent Technology (WHEAT) neut-bio design concept. An
     explanation of the differences between the WHEAT, Fast Path, and Bechtel’s 30 percent design follows:
         Original WHEAT Neut-Bio Concept. The WHEAT design included concurrent energetics treatment,
     conventional disassembly of munitions, and a two-line processing area. The overall schedule was estimated at
     17 years. The Program Office estimated that the floor area for the main processing building totaled
     110,000 square feet. The Program Office staffing estimate was for 550 staff members to operate the facility.
                                                                                                                 21
              Growth in Staffing Levels and Processing Areas (cont’d)

         Fast Path Accelerated Concept. The Fast Path concept included energetics reconfiguration,
    cryofracture, and a three-line processing area using neut-bio. The Program Manager estimated that the overall
    project schedule would drop to 9 years and 5 months. Although an additional processing line was added, the
    Program Office estimate for the floor area of the main processing buildings totaled the same 110,000 square
    feet. However, the Program Office staffing estimate increased from 550 to 740 staff members.

        Bechtel 30 Percent Design. In May 2004, the Program Manager revised his life-cycle cost estimate
    based on the Bechtel 30 percent design, which included concurrent energetics treatment, conventional
    disassembly of munitions, and a three-line processing area using neut-bio. He revised the overall schedule
    from 9 years and 5 months to 11 years and 2 months. The Program Manager estimated that the floor area for
    the main processing buildings would be 273,000 square feet, and the staffing level would increase to 890 staff
    members. Although negotiations for facility staffing levels have not yet taken place, the Program Manager
    and the contracting officer anticipate that Bechtel will propose a staffing level of approximately 1,100 to
    operate the facility.
    In summary, the estimated PCAPP facility size escalated from 55,000 square feet in the Bechtel technical
    proposal, to 110,000 square feet in the Fast Path design specified in the ADM, to 273,000 square feet in
    Bechtel’s 30 percent design. Neither the Program Office nor Bechtel substantiated their facility square foot
    estimates with an in-depth industrial engineering analysis.
Conclusion:
    Although Bechtel proposed a 55,000 square foot design for the main processing buildings in its technical
    proposal, the Program Manager stated that he did not consider the proposed facility square footage in making
    the decision to award the contract and did not require Bechtel to maintain that square footage when designing
    the facility. In addition, the Program Office and Bechtel did not substantiate their proposed facility square
    foot estimates with an in-depth industrial engineering analysis.
                                                                                                                   22
           Growth in Staffing Levels and Processing Areas (cont’d)

Management Comments on the Conclusion and Audit Response:
    Program Manager for Assembled Chemical Weapons Alternatives Comments. The Program
    Manager for Assembled Chemical Weapons Alternatives nonconcurred with the conclusion, stating that
    the facility square footage was not a requirement of the proposal because the design was not expected to
    be mature at that time, and was not considered when selecting the systems contractor. He further stated
    that the 55,000 square foot estimate was unrealistic, and therefore an inaccurate assumption in Bechtel’s
    Technical Proposal. Additionally, the Program Manager stated that industrial engineering standards for a
    chemical demilitarization facility do not exist, and that the PCAPP facility size was based on sound
    engineering judgment and experience. He stated that the current square footage and staffing levels were
    appropriate, based on all the considerations that went into the design.

    Audit Response. The Program Manager’s response affirmed statements in the conclusion statement.
    Without an in-depth industrial engineering analysis of the facility square foot estimates, the need for a
    facility larger than the facility that the Defense Acquisition Executive approved in the ADM has not been
    substantiated.




                                                                                                                23
                                 Acquisition Lessons Learned

Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense
    Programs

   1. Program oversight and communications with the Program Office would have been improved had the
   ATSD (NCB) designated a program manager to be solely responsible for the ACWA Program and encouraged
   the Army to designate a separate director for the Chemical Materials Agency, in accordance with Public
   Law 104-208. Also, the ATSD (NCB) should have recommended that the ACWA Program be established as a
   separate Acquisition Category I program as provided for in DoD Instruction 5000.2.

   Public Law 104-208 requires that the Program Manager for ACWA not be in direct or immediate control of the
   incineration demilitarization program. In February 2003, the Army reorganized the Chemical Demilitarization
   Program, which resulted in the Program Manager for ACWA also being the Director, Chemical Materials
   Agency. Under this arrangement, the Program Manager for ACWA controlled both the alternative technology
   and the incineration destruction sites.

   DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12, 2003, defines major
   Defense acquisition programs as acquisitions with an eventual total expenditure for research, development,
   test, and evaluation of more than $365 million in fiscal year 2000 constant dollars. The April 2003 acquisition
   program baseline agreement for the Chemical Demilitarization Program contains baseline information for the
   ACWA Program as an annex, for which the research, development, test, and evaluation cost objective is
   $3.8 billion in then-year dollars for the demilitarization of assembled chemical weapons at the Pueblo and Blue
   Grass chemical depots.



                                                                                                                24
                            Acquisition Lessons Learned (cont’d)

   2. The ATSD (NCB) could have influenced the Program Office’s acquisition strategy had his office timely
   reviewed and provided direction on the adequacy of the Program Manager’s acquisition strategy and
   acquisition plan.
   In August 2002, the Program Manager submitted a draft acquisition strategy and an acquisition plan to the
   ATSD (NCB) for review that provided the Program Manager’s intended acquisition approach for the PCAPP
   project. As of August 2004, the ATSD (NCB) had not approved the acquisition strategy and had not
   commented on the acquisition plan.
   Because the Office of the ATSD (NCB) did not respond to or disapprove the PCAPP project’s acquisition
   strategy and acquisition plan, the Program Manager released the request for proposal and awarded the
   performance-based contract to Bechtel, through the contracting officer, without the ATSD (NCB) assuring the
   Under Secretary of Defense (AT&L) that project costs would remain affordable as the Under Secretary of
   Defense (AT&L) had certified to Congress in January 2003.

Management Comments on Acquisition Lessons Learned:
   The Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense Programs
   concurred with the acquisition lessons learned. He stated that the OSD submitted a legislative proposal to
   merge the Program Manager for Assembled Chemical Weapons Alternatives under the Army Chemical
   Materials Agency, and that the proposal was accepted by the House Armed Services Committee and will now
   be considered at the Armed Services Committee Conference. Once the proposal is accepted or rejected, the
   Assistant to the Secretary of Defense stated that he will consider designating a separate Program Manager for
   the ACWA Program. Additionally, he stated that the Program Manager previously provided the acquisition
   strategy and the acquisition plan to his office in August 2002 for preliminary comments, not for a formal
   review and approval. The Assistant Secretary stated that, on August 4, 2004, he requested that the Program
   Manager provide those documents to his office for approval. He stated that the Program Manager provided the
   documents on September 9, 2004, and that approval was anticipated within 30 days of receipt.                  25
                           Acquisition Lessons Learned (cont’d)

Program Manager for Assembled Chemical Weapons Alternatives

   1. Because of continued program affordability concerns, the Program Manager should have informed the
   ATSD (NCB) of the contract conflict with the ADM requirements and the potential effects of the conflict on
   pilot program costs. He also should have requested direction and approval from the Under Secretary of
   Defense (AT&L) before proceeding with program decisions that were not fully compliant with the ADM.

   The ADM directed the Army and the ACWA Program Manager to accelerate the stockpile destruction
   process by expediting source selection, optimizing the environmental permit process, reconfiguring the
   munitions, and working with the community and Federal, State, and local governments. The environmental
   laws of the State of Colorado would not support both accelerated permits and reconfiguration, and required a
   full Resource Conservation and Recovery Act Part B permit if reconfiguration of the munitions was to be
   pursued. As a result, the Program Manager chose to pursue the accelerated permitting approach under a
   Research, Development, and Demonstration permit and did not include the design requirement for
   reconfiguration of the munitions in the request for proposal. The Program Manager took this action without
   informing and obtaining direction and approval from the Under Secretary of Defense (AT&L) concerning the
   contract’s nonconformance with ADM requirements.

   2. The Program Manager should have communicated the program status to the ATSD (NCB) before
   May 2003, including changes, deviations, and other critical program information.




                                                                                                                  26
                          Acquisition Lessons Learned (cont’d)

The Interim Defense Acquisition Guidebook, October 30, 2002, provides guidance on the program manager’s
responsibility as the program proceeds through its acquisition life-cycle. Specifically, program managers
should:
 •   Immediately notify the milestone decision authority when a deviation occurs if they have reason to
     believe that the current estimate for a program indicates that a performance, schedule, or cost threshold
     value will not be achieved.
 •   Notify the Overarching Integrated Product Team leader (in this case the DATSD [CD&TR]) if program
     changes require changes to the baseline threshold value. Further, they should quickly bring proposed
     changes to the acquisition program baseline to approval authorities for decision.

In June 2003, when the Program Manager became aware that the facility design would deviate from the
WHEAT design and that the cost of the project would deviate from the cost established in the acquisition
program baseline agreement, he should have informed the ATSD (NCB) of the estimated breach in the life-
cycle cost threshold for the PCAPP project and submitted a revised acquisition program baseline to the
milestone decision authority for approval before allowing Bechtel to proceed with the escalated design. Also,
in June 2003, the Program Manager provided an updated life-cycle cost estimate of $1.9 billion to the
DATSD (CD&TR) but did not explain why the PCAPP life-cycle cost estimate deviated from the $1.5 billion
that the Under Secretary of Defense (AT&L) certified to the Congress in January 2003 or request that the
acquisition program baseline for the PCAPP project be revised.

3. In retrospect, the Program Manager should probably have competed the PCAPP project to the 30 percent
design phase to better understand the life-cycle cost for the PCAPP project and to determine the affordability
of the proposed design before selecting one contractor.

                                                                                                                 27
                            Acquisition Lessons Learned (cont’d)


The Program Manager decided not to compete the PCAPP project to the 30 percent design because he wanted to
rely on a performance-based contracting approach with a minimum number of requirements. This contracting
approach, however, provided Bechtel with significant latitude to change the design without having to consider
the fiscal constraints that the Under Secretary of Defense (AT&L) certified for the PCAPP project.

4. Program managers are required to attend the Defense Acquisition University Program Manager’s course
before being assigned the responsibility to manage major Defense acquisition programs.

The Program Manager stated that he did not attend the Defense Acquisition University Program Manager’s
course as required by law. Attending this course would have provided the Program Manager with the training,
knowledge, and management skills needed to manage the PCAPP project.

Section 1735, title 10, United States Code, “Education, Training, and Experience Requirements for Critical
Acquisition Positions,” (Defense Acquisition Workforce Improvement Act), requires that before being assigned
to a position as a program manager of a major Defense acquisition program, a person must complete the
program management course at the Defense Systems Management College or a management program at an
accredited educational institution determined to be comparable by the Secretary of Defense.




                                                                                                                28
                            Acquisition Lessons Learned (cont’d)


DoD Manual 5000.52-M, “Acquisition Career Development Program,” November 1995, prescribes
procedures for a DoD career development program for acquisition personnel. The Manual requires that
program managers for Acquisition Category I programs attend either the Program Management Course or the
Advanced Program Management Course and either the Executive Program Manager Course at the Defense
Acquisition University or a comparable course approved by the Under Secretary of Defense (AT&L). The
objectives of the Program Manager’s course include learning to apply critical thinking when confronted by
problems and dilemmas on a day-to-day basis, leading and integrating disparate functional groups to develop
a cohesive team capable of coping with the complex problems common to program management offices, and
identifying and applying best business practices to achieve win-win relationships with industry partners.

5. The Program Manager should have developed, or required Bechtel to develop, planning documentation
that adequately addressed the engineering processes for the PCAPP project facility.

Specifically for the PCAPP facility, the Program Manager should have:

       • Prepared a systems engineering plan for the approval of the milestone decision authority that
          described the program’s overall technical approach, including processes, resources, metrics, and
          applicable performance incentives, in accordance with Under Secretary of Defense for
          Acquisition, Technology, and Logistics Memorandum, “Policy for Systems Engineering in DoD,”
          February 20, 2004.




                                                                                                              29
                         Acquisition Lessons Learned (cont’d)


•   Verified that the contracting officer included requirements in the contract scope of work for Bechtel to
    submit and maintain planning documentation for acquisition logistics and software management.

•   Verified that the contracting officer enforced the contract requirements for Bechtel to submit and
    maintain planning documentation for configuration management, contractor quality control, and
    information assurance and systems security.




                                                                                                               30
                                   Acquisition Lessons Learned (cont’d)

Contracting Officer, Army Field Support Command, Rock Island, Illinois
     1. Before issuing requests for proposals, contracting officers need to obtain comprehensive legal reviews to
     ensure, among other things, that the terms in the request for proposals are consistent with the ADM
     requirements of the milestone decision authority.
     A legal review was completed on the request for proposal for the PCAPP project, but it was not
     comprehensive in that it did not disclose that the contracting officer pursued only three of the four
     requirements in the ADM. The request for proposal also did not include a requirement for the contractors to
     include the reconfiguration of the munitions in their proposals because the State of Colorado would not
     approve enhanced reconfiguration without a Resource Conservation and Recovery Act Part B permit, which
     would have added 2 years to the schedule. The legal review also did not disclose that the contracting officer
     did not establish a project ceiling cost or funding profile in the request for proposal to provide the offerors a
     cost constraint that would limit life-cycle costs associated with design of the PCAPP project.
     2. As required, contracting officers need to adequately document their price reasonableness determination
     when accepting contractor proposals.

     FAR 15.406-3, “Documenting the Negotiation,” states that the principal elements of the negotiation,
     significant differences between the negotiated agreement and prenegotiation objectives, and the fair and
     reasonable pricing must be documented. In the contract files, the contracting officer did not provide an
     adequate explanation of the price reasonableness when accepting Bechtel’s design cost proposal of
     $163.9 million. The contracting officer accepted Bechtel’s proposed cost without explanation despite the
     significant difference between Bechtel’s proposed cost of $163.9 million, the losing offeror’s proposal of
     $**.* million, and the independent Government cost estimate of $96.9 million.
_______________________
*Contractor proprietary and negotiation sensitive data omitted.                                                          31
                            Acquisition Lessons Learned (cont’d)

3. To provide contractors with the incentive to stay within approved program life-cycle costs, contracting
officers need to establish requirements in the contract for the contractor to submit and maintain a program
life-cycle cost estimate to verify that the program is affordable and executable.

The Defense Federal Acquisition Regulation Supplement 207.103, “Agency-Head Responsibilities,” states
that the life-cycle costs should be considered in all systems and equipment acquisitions. The current contract
does not require Bechtel to submit and maintain a life-cycle cost estimate.

The Program Manager believed that Bechtel would not be able to prepare an accurate PCAPP life-cycle cost
estimate until the contractor had completed the 30 percent design. Instead, the contracting officer stated that
the Program Office used pieces of information obtained from Bechtel’s cost estimates to develop the
Program Office’s life-cycle cost estimate. The contracting officer stated that a complete life-cycle cost
estimate will be obtained from Bechtel in the future. Bechtel did not submit the life-cycle cost estimate for
the PCAPP project of $2.3 billion until August 23, 2004, to the Program Manager.

4. Because of the potential for conflicts of interest, contracting officers should deny program office requests
for systems contractors to handle public affairs responsibilities (outreach and involvement) in the contracts.

The FAR 1.602-2, “Contracting Officer Responsibilities,” assigns the contracting officer with the
responsibility for ensuring performance of all necessary actions for effective contracting, ensuring
compliance with the terms of the contract, and safeguarding the interests of the Government in its
contractual relationships. This duty includes trying to avoid, neutralize, or mitigate significant potential
conflicts before contract award and preventing the existence of conflicting roles that might bias a
contractor’s judgment.
                                                                                                                  32
                          Acquisition Lessons Learned (cont’d)


Tasking public outreach and involvement to Bechtel as a pilot program created the appearance of a conflict
of interest. The decision to task Bechtel with this responsibility occurred because the Program Manager,
with the approval of the DATSD (CD&TR), believed that this tasking would streamline the project’s
contracting mechanisms and establish a more cohesive evaluation program.




                                                                                                             33
                                    Congressional Certification

What actions can be identified to ensure that the Department complies with the intent of the
  congressional certification required by Public Law 105-261?

Answer:
   On June 28, 2004, the ATSD (NCB), by memorandum, directed the Program Manager to modify the contract
   statement of work to require that Bechtel revise its PCAPP design to remain within the cost objectives
   identified in the Under Secretary of Defense (AT&L) certification to Congress for the project. Another
   option, if Bechtel is unable to meet the ATSD (NCB) requirement, is for the Program Manager to award
   additional contracts to hold a competition through the 30 percent design phase and select the most
   affordable design at the end of the competition.

Congressional Certification:

   The Under Secretary of Defense (AT&L) needs to recertify the cost and schedule for the PCAPP project,
   based on an in-depth industrial engineering analysis of the needed facility size and an updated life-cycle
   cost estimate.

   •      In January 2003, the Under Secretary of Defense (AT&L) certified to Congress that the Pueblo
          Chemical Depot neutralization of the assembled chemical munitions followed by bio-treatment was as
          safe and cost-effective as incineration.

   •      The Under Secretary of Defense (AT&L) stated in the certification that, based on the Program Office’s
          analysis, the entire Pueblo stockpile could be destroyed by 2010 for $1.5 billion in FY 2002 constant
          dollars.
                                                                                                                34
                          Congressional Certification (cont’d)

Current Cost Estimate:
     The Under Secretary of Defense (AT&L) needs to recertify the cost and schedule using an in-depth
     industrial engineering analysis of the needed facility size because, as contracted, Bechtel did not design
     the chemical disposal facility using technology and methods similar to those used for the certification or
     within certified costs.

         •     In June 2002, the CAIG estimated that the total cost to complete the PCAPP project was
               $1.6 billion in then-year dollars.

         •     The CAIG developed that cost estimate based on an assessment of the Program Office’s Fast
               Path neutralization option that the Under Secretary of Defense (AT&L) evaluated when making
               the technology decision for the PCAPP project.

         •     As required by Public Law 105-261, the Program Manager, through the contracting officer,
               awarded a contract to the National Research Council Committee on Review to provide an
               independent scientific and technical assessment of the proposed technologies for the PCAPP
               project. The National Research Council was not tasked to consider project cost and schedule.

     In July 2001, the National Research Council concluded in its report to the Program Manager that, based
     on the results of the demonstration tests, the engineering design package, and available data, the WHEAT
     technology package could provide an effective and safe means of destruction for the assembled chemical
     weapons stored at the Pueblo Chemical Depot.

                                                                                                                  35
                          Congressional Certification (cont’d)

   In October 2003, the Program Manager tasked the National Research Council to assess the process and
   design for the PCAPP facility that Bechtel developed for the design and construction phases of the PCAPP
   project. A representative stated that the National Research Council assessment of the facility design for the
   PCAPP project would not be completed until January 2005.


Conclusion:

   Bechtel developed a design for the PCAPP facility that was not fiscally executable and did not meet the
   intent of the certification that the Under Secretary of Defense (AT&L) submitted to Congress in
   January 2003. Based on the current Program Office life-cycle cost estimate of $2.65 billion in then-year
   dollars, the Program Manager cannot dispose of the stockpile by 2010, and within the $1.5 billion cost as
   certified.




                                                                                                                   36
                          Answer to Additional Audit Objective

Is the PCAPP facility, as currently designed, at risk of not meeting the Treaty’s deadline?

Answer:
    The PCAPP facility design that Bechtel prepared is at risk of not completing agent destruction by the
    Treaty’s extended destruction deadline of April 29, 2012. Additionally, the overall Chemical
    Demilitarization Program, including the ACWA Program, is at risk of not meeting the Treaty’s
    destruction deadline as previously reported in Inspector General of the Department of Defense Report
    No. D-2003-128, “The Chemical Demilitarization Program: Increased Costs for Stockpile and Non-
    Stockpile Chemical Materiel Disposal Programs,” September 4, 2003.

PCAPP Facility Risk Factors:
The Under Secretary of Defense for Acquisition, Technology, and Logistics issued a memorandum on “Policy for
Systems Engineering in DoD,” February 20, 2004, that requires program managers to develop planning
documentation for the engineering processes to ensure that a project’s technical approach is fully integrated. As
of August 2004, the Program Manager had not ensured that Bechtel had prepared the required planning
documentation.
Specifically, the Program Manager and the contracting officer did not include requirements for Bechtel to submit
the following planning documentation in the contract scope of work:

    •     An acquisition logistics plan to integrate support considerations into the system’s design requirements,
          to support the system cost-effectively through its life-cycle, and to identify, develop, and acquire the
          infrastructure elements necessary to the initial fielding and operational support of the system.

                                                                                                                     37
                     Answer to Additional Audit Objective (cont’d)

    •       A software management plan to adequately integrate and test the commercial off-the-shelf hardware,
            software, and networks.
Additionally, the Program Manager and the contracting officer included, but did not require Bechtel to adhere to,
contract requirements for timely preparing and submitting a:

    •       Configuration management plan to ensure that the appropriate technical and administrative direction
            and surveillance will be practiced during all life-cycle phases of the PCAPP project.

    •       Quality control plan to ensure that disposal processes are adequately monitored, controlled, and
            improved to have a positive effect on the project cost and schedule.

    •       System security and information assurance plan to ensure that information systems critical to the
            plant’s operations meet standards for confidentiality, integrity, availability, security, and reliability.

For additional information on systems engineering planning, see Attachment D.


Chemical Demilitarization Program:
At the Chemical Demilitarization Overarching Integrated Product Team Review on July 19, 2004, the CAIG
presented a pre-decisional analysis of the agent disposal operations schedules for the Army (Chemical Materials
Agency) and the ACWA Program.
        *                        *                         *                           *                         *
_________________________
*Predecisional documentation omitted.
                                                                                                                         38
                  Answer to Additional Audit Objective (cont’d)

                                        Disposal Operations Completion Schedules




                    *                   *                   *                   *                    *




As previously reported in Inspector General of the Department of Defense Report No. D-2003-128, delays in
obtaining State permit modifications for beginning disposal operations, safety incidents at operational chemical
disposal facilities, and rising cost estimates for closure of disposal facilities continue to affect future program cost
and the ability of DoD to meet the Treaty’s schedule for disposal of chemical stockpile munitions.

Conclusion:
   The PCAPP facility,              *             *              *               *                   *            , are
   at risk of not meeting the Treaty’s extended destruction deadline of April 29, 2012.
________________________
*Predecisional documentation omitted.                                                                                     39
                Recommendations, Management Comments, and
                             Audit Response

1. We recommend that the Acting Under Secretary of Defense for Acquisition, Technology, and Logistics:

    a. Submit a new certification to Congress stating that the Pueblo Chemical-Agent-Destruction Pilot
Plant Project, as designed, will not meet the intent of the January 2003 certification if the life-cycle cost
estimate for the project cannot be reduced to $1.5 billion.

Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense Programs
Comments. The Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense
Programs, responding for the Acting Under Secretary of Defense for Acquisition, Technology, and Logistics,
concurred, stating that evaluation of a more cost-effective design was being directed. He further stated that the
evaluation would be completed through the systems contractor conducting trade studies to determine a more
affordable design alternative, an independent evaluation of the contractor’s design and trade studies, and an
industrial engineering evaluation of the independent evaluation. The Assistant to the Secretary of Defense stated
that, upon conclusion of the independent evaluation in the third quarter of FY 2005, a new certification to
Congress will be issued if the life-cycle cost estimate of the project cannot be reduced to $1.5 billion.

Program Manager for Assembled Chemical Weapons Alternatives Comments. Although not required to
respond, the Program Manager for Assembled Chemical Weapons Alternatives nonconcurred, stating that, based
on his direct communications with congressional staff, the certification was to be based on a point-in-time
comparison of technologies rather than a fixed life-cycle cost estimate for the duration of the project.




                                                                                                                    40
               Recommendations, Management Comments, and
                        Audit Response (cont’d)

    b. Revise the Acquisition Decision Memorandum to the Program Manager for Assembled Chemical
Weapons Alternatives emphasizing that the Department needs to keep the Pueblo Chemical-Agent-
Destruction Pilot Plant Project within the baseline costs as certified to Congress so that it will remain
affordable.

Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense Programs
Comments. The Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense
Programs concurred, stating that the Acting Under Secretary of Defense for Acquisition, Technology, and
Logistics planned to complete a revised Acquisition Decision Memorandum by October 2004.

Program Manager for Assembled Chemical Weapons Alternatives Comments. Although not required to
respond, the Program Manager for Assembled Chemical Weapons Alternatives nonconcurred, stating that the
$1.5 billion estimate is not achievable. He stated that he will manage and hold the systems contractor
accountable to a new acquisition program baseline based on a revised Acquisition Decision Memorandum.




                                                                                                            41
                Recommendations, Management Comments, and
                         Audit Response (cont’d)

   c. Require the Program Manager for Assembled Chemical Weapons Alternatives to take the Defense
Acquisition University Program Manager’s course as required by section 1735, title 10, United States
Code, “Education, Training, and Experience Requirements for Critical Acquisition Positions.”

Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense Programs
Comments. The Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense
Programs concurred, stating that he had directed that a waiver request to the training requirement be prepared for
the Program Manager and submitted to the Acting Under Secretary of Defense for Acquisition, Technology, and
Logistics for approval, as required by DoD policy.

Program Manager for Assembled Chemical Weapons Alternatives Comments. Although not required to
respond, the Program Manager for Assembled Chemical Weapons Alternatives nonconcurred, stating that
because the Under Secretary of Defense for Acquisition, Technology, and Logistics, as the waiver authority to the
cited statute, appointed him the Program Manager in 1997, there would appear to be an implied acceptance that
the selected official satisfied the intent of all education, training, and experience requirements.

Audit Response. The Assistant to the Secretary of Defense’s comments were responsive to the intent of the
recommendation. Section 1737, title 10, United States Code, “Definition and General Provisions,” states that the
Under Secretary of Defense for Acquisition, Technology, and Logistics may waive, on a case-by-case basis, the
training requirements with respect to the assignment of an individual to a particular critical acquisition position.
Such a waiver may be granted only if unusual circumstances justify the waiver or if he determines that the
individual’s qualifications obviate the need for meeting the education, training, and experience requirements.




                                                                                                                       42
                Recommendations, Management Comments, and
                         Audit Response (cont’d)

2. We recommend that the Program Manager for Assembled Chemical Weapons Alternatives:

    a. Use the industrial engineering analysis to be performed by the National Research Council to
determine the appropriate square footage for the Bechtel National, Inc., Pueblo Chemical Agent-
Destruction Pilot Plant’s facility design.

Program Manager for Assembled Chemical Weapons Alternatives Comments. The Program Manager for
Assembled Chemical Weapons Alternatives nonconcurred, stating that the National Research Council is not
conducting an industrial engineering analysis for the PCAPP facility, but is on contract to review the independent
assessment by Mitretek Systems of Bechtel’s 30 percent design submission. However, the Program Manager
stated that he would consider any of the National Research Council recommendations resulting from the review.

Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense Programs
Comments. Although not required to respond, the Assistant to the Secretary of Defense for Nuclear and
Chemical and Biological Defense Programs concurred, stating that the Acting Under Secretary of Defense for
Acquisition, Technology, and Logistics would direct the Program Manager through a revised Acquisition
Decision Memorandum to have an independent organization conduct an industrial engineering evaluation.

Audit Response. The Program Manager’s comments were not fully responsive to the recommendation.
However, the Acting Under Secretary of Defense for Acquisition, Technology, and Logistics planned action will
ensure that the Program Manager takes the recommended action.



                                                                                                                     43
                 Recommendations, Management Comments, and
                          Audit Response (cont’d)

    b. Remove the public outreach and involvement work for the Pueblo Chemical-Agent-Destruction
Pilot Plant from Bechtel National, Inc., and return it to the Government or third-party contractor.

Program Manager for Assembled Chemical Weapons Alternatives Comments. The Program Manager for
Assembled Chemical Weapons Alternatives nonconcurred, stating that instead of removing the public outreach
and involvement work from Bechtel, he would reinforce contract requirements and increase Government
oversight of the public outreach contract by employing on-site Government personnel to directly oversee day-to-
day public outreach activities. He further stated that he would review the contract statement of work and modify
it as required to further increase Government control over the release of information.

Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense Programs
Comments. Although not required to respond, the Assistant to the Secretary of Defense for Nuclear and
Chemical and Biological Defense Programs concurred, stating that the Deputy Assistant to the Secretary of
Defense for Chemical Demilitarization and Threat Reduction would direct the Program Manager to terminate the
public involvement contract with the systems contractor, and to solicit an independent, third-party company to
provide public affairs services for the PCAPP project. He further stated that completion of this action would
occur by November 10, 2004.

Audit Response. The Program Manager’s comments were partially responsive to the intent of the
recommendation. However, the Deputy Assistant to the Secretary of Defense for Chemical Demilitarization and
Threat Reduction planned action will ensure that the Program Manager takes the recommended action.



                                                                                                                   44
                 Recommendations, Management Comments, and
                          Audit Response (cont’d)

    c. Submit a systems engineering plan for the approval of the milestone decision authority that
describes the Pueblo Chemical-Agent-Destruction Pilot Plant project’s overall technical approach as
required by the Under Secretary of Defense for Acquisition, Technology, and Logistics memorandum on
“Policy for Systems Engineering in DoD,” February 20, 2004.

Program Manager for Assembled Chemical Weapons Alternatives Comments. The Program Manager for
Assembled Chemical Weapons Alternatives concurred, stating that he would work with the Chemical Materials
Agency to submit a systems engineering plan tailored specifically to the Pueblo project and focused on adding
value to the chemical demilitarization project.

Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense Programs
Comments. Although not required to respond, the Assistant to the Secretary of Defense for Nuclear and
Chemical and Biological Defense Programs concurred, stating that he would ensure that the requirement for the
Program Manager to submit a systems engineering plan for approval by the Acting Under Secretary of Defense
for Acquisition, Technology, and Logistics would be included in the revised Acquisition Decision Memorandum.




                                                                                                                45
                Recommendations, Management Comments, and
                         Audit Response (cont’d)
    d. Task the Contracting Officer, Army Field Support Command, Rock Island, Illinois, to:

          (i)   Revise the contract scope of work to require Bechtel National, Inc., to submit an acquisition
                logistics plan and a software management plan for approval.

          (ii) Require Bechtel National, Inc., to adhere to contract requirements for timely preparing and
                submitting configuration management, quality management, and information assurance
                and systems security plans for the Pueblo Chemical-Agent-Destruction Pilot Plant project.

Program Manager for Assembled Chemical Weapons Alternatives Comments. The Program Manager for
Assembled Chemical Weapons Alternatives partially concurred, stating that he would not submit an acquisition
logistics plan and software management plan for approval, because those documents do not add value to the
management of the program and are already addressed through other contract requirements. However, he stated
that the Army Field Support Command had received the configuration management plan and quality management
plan from Bechtel, and would ensure compliance with all contract requirements to include those associated with
information assurance and systems security.

Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense Programs
Comments. Although not required to respond, the Assistant to the Secretary of Defense for Nuclear and
Chemical and Biological Defense Programs concurred, stating that the Acting Under Secretary of Defense for
Acquisition, Technology, and Logistics would direct the Program Manager to submit an acquisition logistics plan
and a software management plan for his approval through the revised Acquisition Decision Memorandum.

Audit Response. The Program Manager’s comments were not fully responsive to the recommendation.
However, the Acting Under Secretary of Defense for Acquisition, Technology, and Logistics planned action will
ensure that the Program Manager takes the recommended actions.

                                                                                                                46
  Part II




Attachments




              47
                               A. Scope and Methodology

The DoD Inspector General’s audit team reviewed documentation from November 1985
   through June 2004:
         • Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
              – Acquisition Decision Memorandum, July 16, 2002
              – PCAPP congressional certification, January 30, 2003

         • Offices of the Assistant to the Secretary of Defense for Nuclear and Chemical and
            Biological Defense Programs and the Deputy Assistant to the Secretary of Defense for
            Chemical Demilitarization and Threat Reduction
              – Chemical Demilitarization Program Overarching Integrated Product Team meeting
                memorandum, November 7, 2003
              – Chemical Demilitarization Program Resource Review memorandum, December 11, 2003
              – Action memorandums on the PCAPP project
              – PCAPP Program Direction memorandum, April 14, 2004

         • Assembled Chemical Weapons Alternatives Program
              –   PCAPP alternative life-cycle cost estimates
              –   Water Hydrolysis of Explosives and Agent Technology blueprints
              –   Program Budget Decision, December 16, 2003
              –   Performance assessment reviews
              –   E-mails and miscellaneous documents on the square footage of the facility


                                                                                                  48
                       A. Scope and Methodology (cont’d)

• Army Field Support Command, Contracting Office
     –   Acquisition plan
     –   Request for proposal
     –   Technical and cost proposals from offerors
     –   Source selection documentation
     –   Legal reviews
     –   Defense Contract Audit Agency reports
     –   Contract, task order, and modification awards
     –   Price negotiation memorandums
     –   Independent Government cost estimates


• Bechtel National, Inc.
     – Weekly status reports
     – Facility square footage comparison information
     – Preliminary, initial, and intermediate designs

• State of Colorado
     – Permit certification letter, August 23, 2002
     – Phase I Research, Development, and Demonstration Permit Application letter, February 11, 2004

                                                                                                       49
                          A. Scope and Methodology (cont’d)

We performed this audit from May 2004 through August 2004 in accordance with generally accepted
government auditing standards.

Limitations:
     We did not review the management control program because the Acting Under Secretary of Defense
     (AT&L) requested that the audit determine actions that would ensure compliance with the certification to
     Congress on the project; identify acquisition lessons learned; review the Government’s contractual
     relationship with the systems contractor; determine whether the systems contractor should handle public
     affairs; and determine whether the contracting approach and structure contributed to growth in the PCAPP
     facility size, staffing level, and life-cycle costs.

Use of Computer-Processed Data:
     We did not use computer-processed data to perform this audit.

Use of Technical Assistance:
     Engineers from the Technical Assessment Division, Office of the Deputy Inspector General for Auditing
     of the Department of Defense participated in the review of the PCAPP project. Specifically, the
     engineers evaluated the PCAPP facility design and the systems engineering planning for the PCAPP
     project.

Government Accountability Office High-Risk Area:
     The Government Accountability Office (GAO), formerly the General Accounting Office, has identified
     several high-risk areas in DoD. This report provides coverage of the DoD Contract Management and DoD
     Acquisition high-risk areas.
                                                                                                                50
                           A. Scope and Methodology (cont’d)

Personnel Contacted During the Audit:
•   Office of the Assistant to the Secretary of Defense for Nuclear, Chemical, and Biological
      Defense Programs
     – Assistant to the Secretary of Defense for Nuclear and Chemical and Biological Defense Programs
     – Deputy Assistant to the Secretary of Defense for Chemical Demilitarization and Threat Reduction
     – Senior Program Analyst (DATSD [CD&TR])

•   Assembled Chemical Weapons Alternatives Program, Headquarters,
      Aberdeen Proving Ground
     –   Program Manager
     –   Deputy Program Manager
     –   Program Analyst
     –   Headquarters Pueblo Lead
     –   Public Affairs Officer


•   Assembled Chemical Weapons Alternatives Program, Pueblo Chemical Depot
     – PCAPP Site Project Manager
     – PCAPP Site Deputy Project Manager
     – Administrative Contracting Officer, Army Corps of Engineers


                                                                                                         51
                          A. Scope and Methodology (cont’d)

•   Pueblo Chemical Depot
     – Commander
     – Public Affairs Officer
     – Chemical Stockpile Emergency Preparedness Project Coordinator

•   Army Field Support Command, Rock Island, Illinois
     – Chemical Demilitarization Division Chief
     – Chemical Demilitarization Branch Chief
     – Procuring Contracting Officer

•   FOCIS Associates, Government Support Contractor
     – FOCIS Site Support Manager for PCAPP

•   OSD Cost Analysis Improvement Group
     – Director, Operations Analysis and Planning Procurement Division
     – Cost Analyst, Operations Analysis and Planning Procurement Division

•   Bechtel National, Inc.
     – PCAPP Project Manager
     – PCAPP Public Involvement Manager

                                                                             52
                                          B. Prior Audit Coverage

Within the last year, the Inspector General of the Department of Defense (IG DoD) issued one report on the
potential for cost escalation at the chemical disposal facility at Pueblo, Colorado.
IG DoD Report No. D-2003-128, “The Chemical Demilitarization Program: Increased Costs
for Stockpile and Non-Stockpile Chemical Materiel Disposal Programs,” September 4, 2003

The IG DoD report discussed issues affecting the ability of the Director, Chemical Materials Agency to
effectively control the cost estimate of the Chemical Stockpile Disposal Program, including the:
      • delays in obtaining State permit modifications needed to begin disposal operations,
      • monetary effects of decisions on the type of technology to be employed at two Assembled
        Chemical Weapons Assessment facilities,
      • escalation in costs and safety incidents at operational chemical disposal facilities, and
      • rising cost estimates for closure of disposal facilities.
The report stated that when the September 2001 program cost estimate was prepared, the Director, Chemical
Materials Agency based the cost estimate for the Pueblo facility on the Army Chemical Materials Agency’s
employing the incineration technology. In June 2002, the ACWA Program Manager submitted the cost estimate
for the Pueblo disposal facility to the CAIG for review and approval. The CAIG assessed and revised the
program estimate.
In addition, the CAIG determined that the full cost might escalate after the contractors completed the final
disposal facility designs, which would result in future cost growth of the overall Chemical Demilitarization
Program. The report further stated that program cost growth might also lead to additional program baseline cost
breaches that would require the Under Secretary of Defense (AT&L) to recertify the program’s cost and schedule
to the Congress.
                                                                                                                  53
                                B. Prior Audit Coverage (cont’d)

During the last 4 years, the GAO and the Army Audit Agency have issued four additional reports related to
demilitarizing chemical weapons at the Pueblo Chemical Depot within the overall Chemical Demilitarization
Program.

Government Accountability Office (GAO)
      GAO Report No. 04-634T, “Chemical Weapons: Destruction Schedule Delays and Cost Growth Continue
       to Challenge Program Management,” April 1, 2004
      GAO Report No. 04-221T, “Chemical Weapons: Better Management Tools Needed to Guide DoD’s
       Stockpile Destruction Program,” October 30, 2003
      GAO Report No. 02-890, “Chemical Weapons: Lessons Learned Program Generally Effective but Could
       be Improved and Expanded,” September 10, 2002

Army Audit Agency
      Army Audit Agency Report No. 00-346, “Engineering Change Process for the Chemical Stockpile
       Disposal Project; Aberdeen Proving Ground, MD,” August 14, 2000




                                                                                                            54
             C. Request from the Acting Under Secretary of Defense
                   for Acquisition, Technology, and Logistics




    *                            *       *      *             *




_______________________
* Predecisional documentation omitted.
                                                                  55
                         D. Detailed Background Information

Chemical Demilitarization Program

In 1985, DoD established the Chemical Demilitarization Program to comply with statutory direction.
Specifically, because of congressional concerns for the stockpiles’ deterioration, section 1521, title 50, United
States Code, “Destruction of Existing Stockpile of Lethal Chemical Agents and Munitions,” (Public Law 99-
145), directed DoD to oversee the destruction of the stockpile of lethal chemical agents and munitions. The
Congress, as part of the same legislation, designated the Army as the Military Department responsible for the
destruction of the stockpile. The technology employed for the destruction of the chemical weapons stockpile was
baseline incineration.


Public Law 104-208

Public Law 104-208, “National Defense Appropriations Act for Fiscal Year 1997,” September 30, 1996, directed
that a pilot program be conducted to identify and demonstrate not less than two alternatives to the baseline
incineration process for the demilitarization of assembled chemical weapons, and that a program manager who is
not, nor has been, in direct or immediate control of the baseline reverse assembly incineration demilitarization
program carry out the pilot program. As a result, the Office of the Secretary of Defense established the position
of ACWA Program Manager.




                                                                                                                    56
                    D. Detailed Background Information (cont’d)

Public Law 105-261
Public Law 105-261, “National Defense Authorization Act for Fiscal Year 1999,” October 17, 1998, states that:

   (a) The program manager for the Assembled Chemical Weapons Assessment shall continue to manage the
development and testing of technologies for the destruction of lethal chemical munitions that are potential or
demonstrated alternatives to the baseline incineration program independently of the program manager for Chemical
Demilitarization and shall report to the Under Secretary of Defense for Acquisition and Technology.

   (b) The program manager for the Assembled Chemical Weapons Assessment shall carry out those activities
necessary to ensure that an alternative technology for the destruction of lethal chemical munitions can be
implemented immediately after-- (A) the technology has been demonstrated to be successful; and (B) the Under
Secretary of Defense for Acquisition and Technology has submitted a report on the demonstration to Congress.

    (c) The Under Secretary of Defense for Acquisition and Technology shall provide for an independent evaluation
of the cost and schedule of the Assembled Chemical Weapons Assessment, which shall be performed and submitted
to the Under Secretary not later than September 30, 1999. The evaluation shall be performed by a nongovernmental
organization qualified to make such an evaluation.

    (d) (1) The Under Secretary of Defense for Acquisition and Technology shall determine whether to proceed with
pilot-scale testing of a technology referred to in paragraph (2) in time to award a contract for the design,
construction, and operation of a pilot facility for the technology to the provider team for the technology not later than
December 30, 1999. If the Under Secretary determines to proceed with such testing, the Under Secretary shall
(exercising the acquisition authority of the Secretary of Defense) award a contract not later than such date.

                                                                                                                      57
                     D. Detailed Background Information (cont’d)

Public Law 105-261 (cont’d)
      (2) Paragraph (1) applies to an alternative technology for the destruction of lethal chemical munitions, other
than incineration, that the Under Secretary certifies in writing to Congress is--(i) as safe and cost-effective for
disposing of assembled chemical munitions as incineration of such munitions; and (ii) is capable of completing
the destruction of such munitions on or before the latter of the date by which the destruction of the munitions
would be completed if incineration were used or the deadline date for completing the destruction of the munitions
under the Chemical Weapons Convention.
        (3) The Under Secretary shall consult with the National Research Council in making determinations and
certifications for the purpose of paragraph (2).

Chemical Weapons Convention
On April 25, 1997, the United States became one of 164 parties to ratify the “Convention on the Prohibition of
the Development, Production, Stockpiling, and Use of Chemical Weapons and on Their Destruction,” also known
as the Treaty. The Treaty established provisions by which all parties would declare their chemical weapons and
destroy them in accordance with the principles and methods established in the Treaty no later than 10 years after
entry into force of the Convention, or April 29, 2007, for the United States. The Treaty is a Major Arms Control
and Nonproliferation Treaty which, among other obligations, requires parties to the Treaty to restrict and monitor
international trade in certain toxic chemicals and precursors to ensure that they are not used to develop chemical
weapons, and to report industrial activities involving these chemicals to the Organization for the Prohibition of
Chemical Weapons. The Treaty allows the parties to request a one-time extension to the deadline, not to exceed
15 years after entry into force of the Convention (5-year extension), which would extend the destruction deadline
to April 29, 2012, for the United States.
                                                                                                                       58
                                    E. Evolution of Events for the Pueblo
                                Chemical-Agent-Destruction Pilot Plant Project
    June 2001. As directed by Public Law 104-208, the Program Office evaluated four technologies under the
    Defense Acquisition Board review process:
            • Baseline incineration
            • Modified baseline incineration
            • Neutralization followed by biological-treatment (neut-bio), also known as the WHEAT design
            • Neutralization followed by Super Critical Water Oxidation, also known as the General Atomics Total
                Solution design
    February 2002. The Program Office submitted cost and schedule estimates to the Defense Acquisition Board
    prior to 2002 that could not be certified as meeting the Treaty requirements. As a result, the CAIG recommended
    that the Program Office develop Fast Path estimates to show that the neutralization technology could be
    accelerated. Accordingly, the Program Office developed several Fast Path estimates based on a combination of
    Neut-Bio and Neut-SCWO technologies. The FY 2004-2009 budget and schedule that the Defense Acquisition
    Board approved for the PCAPP resulted from the CAIG assessment of the Fast Path estimates. The CAIG
    assessment of the Neutralization followed by Super Critical Water Oxidation, neut-bio, and Fast Path estimates
    follow:
                                           Prior to 2001 DAB1                  Prior to 2001 DAB1                 2002 DAB1-Approved
                                          Neut-SCWO2 Concept                    Neut-Bio Concept                   Fast Path Concept
                                              w/CAIG Risk                         w/CAIG Risk                        w/CAIG Risk

Overall schedule                                  17 years                            17 years                        9 years, 5 months
Operations complete                              April 2015                        September 2015                         April 2010
Cost (then-year dollars)                        $2.1 billion                        $2.1 billion                         $1.6 billion
Main process buildings                approximately 122,000 square feet   approximately 110,000 square feet   approximately 110,000 square feet
Staffing                                     approximately 580                   approximately 550                   approximately 740

1   Defense Acquisition Board
2   Neutralization followed by Super Critical Water Oxidation
                                                                                                                                                  59
                      E. Evolution of Events for the Pueblo
               Chemical-Agent-Destruction Pilot Plant Project (cont’d)

March 2002. The Under Secretary of Defense (AT&L) approved neut-bio as the preferred alternative technology.

June 2002. The Program Manager stated that he briefed his acquisition approach to the ATSD (NCB).

July 2002. The Under Secretary of Defense (AT&L) signed the ADM approving neut-bio as the technology to
safely dispose of the chemical weapons stockpile at Pueblo, Colorado. He also directed the Army and the Program
Manager to accelerate the stockpile destruction process by:

        •   expediting source selection,
        •   optimizing the environmental permit process,
        •   reconfiguring the munitions, and
        •   working with the community and the Federal, State, and local governments.

The Program Manager issued a request for proposal for the PCAPP design phase through the closure of the PCAPP
facility. The request for proposal stated that a task order contract would be awarded with most of the tasks
awarded on a cost-reimbursable basis. The request for proposal included a performance-based statement of work
that required the systems contractor to develop a PCAPP design that implemented the selected neut-bio technology
for demilitarizing and disposing of mustard agents stored at the Pueblo Chemical Depot. The request for proposal
stated that the systems contractor would determine the requirements for the rate of processing of the munitions and
all related materials. The request for proposal did not specify limitations on the size, staffing level, or cost of the
facility.




                                                                                                                     60
                      E. Evolution of Events for the Pueblo
               Chemical-Agent-Destruction Pilot Plant Project (cont’d)

August 2002. The Program Office received two contractor proposals in response to the request for proposal. As
requested, the contractors proposed costs only for the design phase of the PCAPP contract. Costs for the
construction-through-closure phases were to be negotiated at a later date. Bechtel proposed a cost of
$163.9 million and           *         *           *         *          *         , which the Source Selection
Evaluation Board later adjusted to $**.* million because the prospective systems contractor had not fully
considered the design requirements in the request for proposal. The independent Government cost estimate for
the design phase was $96.9 million. Bechtel’s proposal also included a total square footage estimate of
55,000 square feet for the main processing buildings.

September 2002. The contracting officer awarded the basic contract to Bechtel, along with task order one for the
design build plan, based on a best value selection that ranked technical approach as the most important evaluation
factor and cost as the least important factor. However, the Program Manager did not inform the Under Secretary
of Defense (AT&L) through OSD officials that the awarded contract did not include accelerated reconfiguration
as required by the ADM.

October 2002. The losing contractor, Pueblo Environmental Solutions, filed a protest on the contract award and
the GAO issued a stop work order to evaluate the protest.

December 2002. The GAO denied the protest and lifted the stop work order.
January 2003. The Under Secretary of Defense (AT&L) certified to Congress that the neutralization of the
assembled chemical munitions followed by bio-treatment at the Pueblo Chemical Depot was as safe and cost
effective as incineration. He also certified that for $1.5 billion, the entire Pueblo stockpile would be destroyed
by 2010.
_______________________
*Contractor proprietary and negotiation sensitive data omitted.                                                      61
                     E. Evolution of Events for the Pueblo
              Chemical-Agent-Destruction Pilot Plant Project (cont’d)
March 2003. The contracting officer awarded Task Order Three for special studies.

April 2003. The contracting officer awarded Task Order Two for completion of the design phase.

May 2003. Bechtel completed the design build plan.

June 2003. The Program Manager developed a life-cycle cost estimate based on Bechtel’s technical proposal.
The June 2003 life-cycle cost estimate was $1.9 billion based on an overall project schedule of 9 years with the
completion of operations scheduled for November 2009. Bechtel estimated approximately
297,000 square feet of main processing buildings, and employment of approximately 780 staff members.
According to the Program Manager, the estimate was larger than the estimate that the Defense Acquisition Board
approved in 2002 because Bechtel’s proposal contained:

      • concurrent enhanced reconfiguration;
      • munitions washout rather than cryofracture; and
      • increased square footage for the main processing buildings to meet the Treaty’s schedule requirement
        and to improve operational effectiveness.

November 2003. The contracting officer awarded Task Order Four for project services (public involvement and
outreach).

December 2003. The ATSD (NCB) issued a memorandum to the Program Office directing an analysis of the
design alternatives for the PCAPP facility because the contractor’s PCAPP design plans were not fiscally
executable within FY 2004-2009 funding levels.
                                                                                                                   62
                    E. Evolution of Events for the Pueblo
             Chemical-Agent-Destruction Pilot Plant Project (cont’d)
January 2004. Representatives from the OSD, ACWA Program, U.S. Army Corps of Engineers, Bechtel Pueblo
Team (Bechtel and Government site personnel), and FOCIS Associates (Government support contractor)
submitted information for the PCAPP design plans to the CAIG for analysis. Also, Bechtel submitted the PCAPP
design at 30 percent completion to the Program Manager for review and approval.

March 2004. The CAIG provided the results of its analysis to the DATSD (CD&TR). The CAIG analysis
focused on reducing the size of the facility and resulted in reduced capital construction costs.

The Program Manager accepted Bechtel’s design at 30 percent completion which did not include reconfiguration.

April 2004. The ATSD (NCB) issued a memorandum to the Program Manager directing him to pursue a revised
design for the PCAPP and conduct supporting analyses.

May 2004. In response to the ATSD (NCB) memorandum, the Program Manager, through the contracting officer,
awarded a task to Mitretek Systems to perform an independent technical review of the 30 percent design, tasked a
National Research Council subcommittee to review the Mitretek effort, and requested a proposal from Bechtel to
address potential design changes.

On May 28, 2004, the Program Manager submitted a Program Office life-cycle cost estimate of $2.65 billion
based on Bechtel’s 30 percent design submission. Bechtel’s design provided for an overall schedule of 11 years
and 2 months, with the completion of operations scheduled for August 2011. Bechtel estimated approximately
273,000 square feet for main processing buildings, and employment of approximately 890 staff members.

Bechtel submitted the PCAPP design at 60 percent completion to the Program Manager for review and approval.

                                                                                                                 63
                   E. Evolution of Events for the Pueblo
            Chemical-Agent-Destruction Pilot Plant Project (cont’d)

June 2004. On June 10, 2004, the Program Manager submitted his plan for the PCAPP project to the
ATSD (NCB). He proposed to suspend further contractor work to complete the three-line design, accelerate
trade studies previously planned to reduce life-cycle cost through facility size, equipment, and operating
personnel reductions, and initiate an effort to develop a two-line design that would incorporate positive trade
study outputs. The Program Manager stated that his proposed path forward would minimize the impact of the
ongoing design review on the PCAPP project and determine within what fiscal parameters the project should be
maintained.
On June 28, the ATSD (NCB) issued direction to the Program Manager to clarify the path forward for the
PCAPP project. He directed the Program Manager to work towards maintaining costs of the PCAPP facility
within the acquisition program baseline objective cost and completing destruction of the Pueblo stockpile before
the Treaty’s completion date of April 29, 2012.

August 2004. With the approval of the Under Secretary of Defense (AT&L), the Program Manager planned to
award Task Order Five for the construction phase of the PCAPP project.




                                                                                                                   64
                                          F. Systems Engineering

Systems engineering management for the PCAPP project should include planning documentation for the following
six engineering areas: systems engineering, acquisition logistics, software management, configuration
management, quality control, and information assurance and systems security.

Systems Engineering Management. Military Standard-499A, “Engineering Management,” May 1974, which was
canceled in February 1995, stated that systems engineering is a logical sequence of activities and decisions that
transforms an operational need into a description of system performance parameters and a preferred system
configuration. In January 2001, to provide DoD program managers with continuing systems engineering guidance,
the Defense Acquisition University prepared a manual on systems engineering fundamentals as supplementary text.
The Manual provides program managers with a basic framework for planning and assessing system development.
In February 2004, the Under Secretary of Defense (AT&L) noted the absence and importance of systems
engineering policy in DoD acquisition policy. Because of the importance of systems engineering in the acquisition
process, the Under Secretary of Defense (AT&L) issued a memorandum in February 2004 to reinstate systems
engineering policy in the DoD acquisition process. The memorandum directed that systems engineering planning
be fully integrated into program managers’ acquisition strategies.

Based on the maturity of the technology that will be used for the PCAPP facility, the project is considered to be in
the systems development and demonstration phase of the acquisition process. Accordingly, the Program Manager
should have already developed planning documentation for the engineering processes. As stated earlier, the
Program Manager did not prepare or obtain documentation from Bechtel to adequately address systems engineering
planning for the PCAPP project. Specifically, the Program Manager did not have a systems engineering plan, and
the contracting officer did not include requirements in the contract scope of work for Bechtel to submit planning
documentation for acquisition logistics and software management. Additionally, the Program Manager and the
contracting officer included, but did not require Bechtel to adhere to, contract requirements for preparing and
submitting configuration management, quality management, and information assurance and systems security plans.

                                                                                                                  65
                                  F. Systems Engineering (cont’d)

Based on a review of the systems engineering planning for the PCAPP project facility, engineers from the
Inspector General DoD Technical Assessment Division concluded that the Program Manager did not adequately
address the following systems engineering planning areas.

1. Systems Engineering:
The Defense Acquisition University Manual states that systems engineering planning is an activity that has a
direct effect on acquisition planning decisions and establishes the feasible methods needed to achieve the
acquisition objectives. The Manual further states that program managers use it to ensure that all technical
activities are identified and managed; communicate the technical approach to the broad development team;
document decisions and technical implementation; and establish the criteria to judge how well the systems
development is meeting customer and management needs.

Criteria:
The Under Secretary of Defense for Acquisition, Technology, and Logistics memorandum on “Policy for
Systems Engineering in DoD,” February 20, 2004, and the Interim Defense Acquisition Guidebook (the
Guidebook), October 30, 2002, provide policy for systems engineering for acquisition programs.
The Under Secretary of Defense (AT&L) memorandum requires program managers to develop a systems
engineering plan for milestone decision authority approval that describes the program’s overall technical
approach, including processes, resources, metrics, and applicable performance incentives. The memorandum also
requires program managers to detail the timing, conduct, and success criteria of technical reviews.
The Guidebook states that program managers shall implement a sound systems engineering approach, consisting
of a top-down, iterative process of requirements analysis, functional analysis and allocation, design synthesis and
verification, and system analysis and control.
                                                                                                                      66
                                F. Systems Engineering (cont’d)

Why the Program Manager did not prepare a Systems Engineering Plan for the PCAPP
 Project
A representative for the ACWA Program stated that the Program Manager did not prepare a systems engineering
plan for the PCAPP project because he relied on the systems contractor to perform all planning for the
management of the design and the chemical agent destruction processes needed to dispose of the chemical
munitions at the Pueblo Chemical Depot. In the PCAPP project acquisition strategy and acquisition plan that were
submitted to the Office of the ATSD (NCB), the Program Manager reported the intent to award a performance-
based contract that placed total project responsibility with the systems contractor. The Program Manager believed
that placing total responsibility with the systems contractor, without establishing management oversight of the
contractor processes in a systems engineering plan, was appropriate because he had not received any specific
comments on the acquisition strategy that he submitted to the Office of the ATSD (NCB) for review and approval
in August 2002.

Conclusion:
Without a systems engineering plan, the Program Manager does not have a planning document that provides the
integrating technical processes to define and balance system performance, cost, schedule, and risk. As of
August 2004, Bechtel completed 60 percent of the design for the PCAPP project. Because the construction and
systemization phases have not started, the Program Manager still has the opportunity to document his plans for
systems engineering to ensure that he can exercise proper oversight of the processes that Bechtel uses to construct,
systemize, pilot test, and operate the PCAPP facility in a cost-effective manner.




                                                                                                                   67
                                 F. Systems Engineering (cont’d)

2. Acquisition Logistics:
Integrated logistics support planning and support analysis are essential for coordinating total systems support for
chemical disposal plants because the availability, maintainability, and logistic supportability of the processing plant
equipment affects the rate at which munitions are destroyed. IG DoD Report No. D-2003-088, “Acquisition of the
Chemical Demilitarization Program,” May 12, 2003, reported on the importance of failure analysis and reporting,
preventive maintenance, and supply support logistics functions to the Tooele, Utah and Anniston, Alabama chemical
disposal facilities.

Criteria:
The Interim Defense Acquisition Guidebook and the Military Handbook-502, “Acquisition Logistics,” May 1997,
provide guidance for program managers to use in planning acquisition logistics.
The Guidebook states that program managers shall conduct acquisition logistics management activities throughout
the life cycle of the program.
Military Handbook-502 states that the principal objectives of acquisition logistics are to ensure that support
considerations are an integral part of the system’s design requirements, that the system can be cost-effectively
supported through its life-cycle, and that the infrastructure elements necessary for initial fielding and operational
support of the system are identified, developed, and acquired.

Why the Program Manager did not require an Acquisition Logistics Plan for the PCAPP
 Project
The Program Manager stated that he did not require Bechtel to submit an acquisition logistics plan for the PCAPP
project because his acquisition strategy required logistics to be the total responsibility of Bechtel. Accordingly, the
Program Manager relied on Bechtel under the performance-based contract to determine when to address PCAPP
logistics issues.                                                                                                     68
                               F. Systems Engineering (cont’d)

Conclusion:
The Program Manager can avoid future schedule delays in systemization, pilot testing, and operations if Bechtel
adequately plans for failure analysis and reporting, planned and preventive maintenance, and timely supply
support for PCAPP facility plant equipment.

3. Software Management:
Reliable software and hardware are essential to the operation of chemical disposal facilities. The PCAPP project
design integrates the use of commercial and standard software applications and commercial hardware to operate
the system’s equipment and control the safety systems. DoD guidance states that program managers should
manage and engineer software intensive systems through best processes and practices that reduce cost, schedule,
and performance risks. Program managers are required to engineer, develop, integrate, test, evaluate, deliver,
sustain, and manage the overall systems development when using commercial hardware and software.

Criteria:
The Interim Defense Acquisition Guidebook provides specific guidance for program managers to use in managing
and engineering software intensive systems. Specifically, program managers should:
      • Base software systems design and development on systems engineering principles that include using
        commercial-off-the-shelf computer system products, and allowing incremental improvements based on
        modular, reusable, and extensible software.
      • Work with the user to define and modify requirements to facilitate the use of commercial and non-
        developmental items that include requirements for hardware, software, interoperability, and data
        interchange.

                                                                                                                   69
                               F. Systems Engineering (cont’d)

      • Prepare for life-cycle software support or maintenance by developing or acquiring the necessary
        documentation and by structuring a software development process that recognizes that emerging
        requirements will require software to be modified over the life cycle of the system.
      • Engineer the system architecture and establish a rigorous change management process for life-cycle
        support. Systems that integrate multiple commercial items require extensive engineering to facilitate the
        insertion of planned new commercial technology. Failure to address changes in commercial items and the
        marketplace will potentially result in a system that cannot be maintained as vendors drop support for
        obsolete commercial items.

Why the Program Manager did not require a Software Management Plan for the PCAPP
 Project
The Program Manager stated that he did not place a specific requirement in the contract scope of work for Bechtel
to prepare a software management plan because he believed that Bechtel would accomplish software planning
requirements under the performance-based contract. During the review, the Design Build Manager for Bechtel
stated that there was no need for software development planning because Bechtel planned to use standard software
applications and commercial systems that were previously verified and validated. However, engineers from the
DoD Inspector General’s Technical Assessment Division determined that Bechtel needed to plan for the
integration, testing, evaluation, and sustainment of hardware and software for the PCAPP project facility because
the standard software applications and commercial systems had not previously been integrated, verified, and
validated in the configuration planned for the PCAPP project facility.




                                                                                                                    70
                               F. Systems Engineering (cont’d)

Conclusion:
Because the construction phase has not begun, the Program Manager and contracting officer should modify the
contract scope of work to require Bechtel to implement software management planning to effectively manage the
PCAPP software and hardware systems.

4. Configuration Management:
An effective configuration management process will ensure that the PCAPP project facility is constructed as
designed. Configuration management is a management process that identifies and documents the functional and
physical characteristics of a configuration item, controls changes to those characteristics, and records and reports
changes.

PCAPP Configuration Management Plan’s Contract Requirement:
The contract required Bechtel to submit a final configuration management plan within 135 days after contract
award; that is, September 27, 2002, to maintain the plan throughout the life of the contract, and to update it
annually. Further, the contract required Bechtel to demonstrate the processes described in the configuration
management plan during the design phase of the PCAPP project facility.

Criteria:
Military Handbook-61A, “Configuration Management Guidance,” February 7, 2001, provides guidance and
information to DoD acquisition managers, logistics managers, and other individuals who are assigned
responsibility for configuration management to assist them in planning and implementing configuration
management activities and practices during all life-cycle phases of defense systems.

                                                                                                                       71
                               F. Systems Engineering (cont’d)

Handbook-61A states that a configuration management plan should be developed as early as the concept and
technology development phase of the acquisition process. Additionally, the Handbook states that a configuration
management plan should focus on program definition and risk reduction, and development, production, and
support activities.

Status of Bechtel’s Configuration Management Plan:
The PCAPP Government Site Project Manager stated that as of August 2004, Bechtel’s final configuration
management plan was scheduled to be completed before the start of construction on the PCAPP facility.

Conclusion:
The absence of a configuration management process for the PCAPP project facility may lead to:
      • equipment failures because of incorrect installation or replacement of parts;
      • schedule delays and increased cost because of unanticipated changes; and
      • maintenance problems, operational delays, and increased cost because of inconsistencies between
        equipment and its maintenance instructions.

Because the PCAPP project facility is approaching the construction decision, the Program Manager and the
contracting officer need to enforce the contract requirement for Bechtel to immediately submit a configuration
management plan and perform the annual updates as required to ensure that Bechtel has planned for effective DoD
configuration management activities and practices during the life of the PCAPP project.



                                                                                                                  72
                                F. Systems Engineering (cont’d)

5. Quality Control:
It is essential for the Program Manager to ensure that Bechtel uses effective quality control procedures when
designing and constructing the PCAPP project facility. Quality control is defined as a system for verifying and
maintaining a desired level of quality in a product or process by careful planning, use of proper equipment,
continued inspection, and corrective action as required.


PCAPP Contractor Quality Control Plan Contract Requirement:
The PCAPP contract required Bechtel to submit a final contractor quality control plan for design activities within
60 days of the contract award; that is, September 27, 2002.

Criteria:
The Interim Defense Acquisition Guidebook and the U. S. Army Engineering Support Center, Huntsville,
Specification 01451, “Contractor Quality Control,” February 2002, provide guidance on quality assurance and
quality control activities for quality management systems.

The Guidebook states that program managers shall establish a quality management system to monitor, control, and
improve performance processes. The Guidebook further states that program managers shall allow contractors to
define and use a preferred quality management process that meets required support capabilities of the program.




                                                                                                                     73
                               F. Systems Engineering (cont’d)

Specification 01451 requires systems contractors to provide and maintain an effective quality management system
for design activities that ensures all services provided meet professional architectural and engineering quality
standards. Specification 01451 further requires systems contractors, as part of the contractor quality control plan,
to define internal quality assurance and quality control practices used to ensure that the design is technically
acceptable, constructible, maintainable, and operable. For design activities, Specification 01451 requires that the
contractor’s quality control plan define and provide the following:

      • the processes and procedures used to manage design activities;

      • the design products to be prepared to support and construct the design;

      • for each design product, the reviews to be performed (for example, administrative and drafting checks,
        discipline and interdiscipline technical reviews, independent reviews, and specialized reviews);

      • the general criteria for acceptability and the method of documenting that acceptability; and

      • any qualification requirements applicable to the reviewers.

Status of Bechtel’s Quality Control Plan:
The PCAPP Government Site Project Manager stated that, as of August 2004, Bechtel’s final quality control plan
was scheduled to be completed before the start of construction of the PCAPP facility.



                                                                                                                   74
                                F. Systems Engineering (cont’d)

Conclusion:
Without a contractor quality control plan, the Government will not be able to monitor Bechtel’s internal quality
assurance and quality control practices, which are needed to ensure the design is technically acceptable,
constructible, maintainable, and operable.
The Program Manager and the contracting officer need to enforce the contract requirement for Bechtel to
immediately submit a final quality control plan for the design phase to ensure that Bechtel has effectively planned
for quality management activities.


6. Information Assurance and Systems Security:
Information assurance for the PCAPP project facility will provide the means to ensure the confidentiality,
integrity, and availability of information processed by information-based systems. Implementing information
assurance requirements is necessary to provide a measure of confidence that the security features, practices,
procedures, and architecture of the systems accurately enforce DoD security policy and protect information
systems against unauthorized access.

PCAPP Automated Information Systems:
The PCAPP project includes an automated facility control system, which operates the plant system equipment and
controls plant safety systems, and an automated facility protection system, which prevents agent release. The
systems include workstations, servers, communication networks, software, and hardware.




                                                                                                                      75
                               F. Systems Engineering (cont’d)

Criteria:
The scope of work in the PCAPP contract required Bechtel to use Army Regulation 25-1, “Army Information
Management,” February 15, 2000, as guidance and to comply with Army Regulation 380-19, “Information System
Security,” February 27, 1998.
Army Regulation 25-1 suggests that developers of systems include information assurance and security
requirements in the design, development, and acquisition of the systems. Regulation 25-1 states that all
information systems and networks be subjected to an established certification and accreditation process, which
verifies that required levels of information assurance are achieved and sustained according to DoD
Instruction 5200.40, “Defense Information Technology Security Certification and Accreditation Process,”
December 30, 1997. The certification and accreditation process considers the system’s mission, environment, and
architecture while it assesses the impact of the system’s operations on the information infrastructure.
Army Regulation 380-19 lists systems security and accreditation requirements for automated information systems.
Regulation 380-19 states that security policy and requirements for automated information systems defined at
concept development, be considered throughout the life cycle. Further, Regulation 380-19 requires information
systems security officers to:
      • prepare, distribute, and maintain plans, instructions, guidance, and standard operating procedures for the
        security of systems operations.
      • conduct threat and vulnerability assessments to enable the manager to properly analyze the risks to
        information and determine appropriate measures to effectively manage those risks.
      • prepare or oversee the preparation of the certification and accreditation documentation and maintain a
        certification or accreditation statement for current network or automated information systems.


                                                                                                                     76
                                F. Systems Engineering (cont’d)

PCAPP Design Documentation:
The engineers from the DoD Inspector General’s Technical Assessment Division determined that Bechtel’s
technical proposal, design criteria, intermediate design plan, and engineering specifications document for the plant
control system did not include requirements for:
      • systems security planning,
      • a risk assessment plan for determining systems security measures, or
      • Defense Information Technology Security Certification and Accreditation Process systems security
        certification and accreditation.

Conclusion:
The Program Manager and the contracting officer need to enforce the contract requirement for Bechtel to
implement information assurance and systems security as required by Regulation 25-1 and Regulation 380-19 to
assure the milestone decision authority that the PCAPP automated information systems will accurately enforce
DoD information assurance and security policy.




                                                                                                                   77
G. Acquisition Decision Memorandum




                                     78
H. Public Law 104-208




                        79
I. Public Law 105-261




                        80
I. Public Law 105-261 (cont’d)




                                 81
                                   J. Report Distribution

Office of the Secretary of Defense
    Under Secretary of Defense for Acquisition, Technology, and Logistics
     Deputy Assistant to the Secretary of Defense for Chemical and Biological Defense
     Director, Defense Procurement and Acquisition Policy
     Program Manager, Assembled Chemical Weapons Alternatives
    Under Secretary of Defense (Comptroller)/Chief Financial Officer
     Deputy Chief Financial Officer
     Deputy Comptroller (Program/Budget)
    Director, Program Analysis and Evaluation

Department of the Army
    Assistant Secretary of the Army (Financial Management and Comptroller)
    Auditor General, Department of the Army
    Commander, Army Field Support Command

Department of the Navy
    Naval Inspector General
    Auditor General, Department of the Navy

Department of the Air Force
    Auditor General, Department of the Air Force

                                                                                        82
                          J. Report Distribution (cont’d)

Combatant Command
   Inspector General, U.S. Joint Forces Command

Other Defense Organizations
   Director, Defense Contract Audit Agency
   Director, Defense Contract Management Agency

Non-Defense Federal Organization
   Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and Ranking Minority Member
   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on Defense, Committee on Appropriations
   House Committee on Armed Services
   House Committee on Government Reform
   House Subcommittee on Government Efficiency and Financial Management, Committee on Government
    Reform
   House Subcommittee on National Security, Emerging Threats, and International Relations, Committee on
    Government Reform
   House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and the Census,
    Committee on Government Reform                                                                        83
      Part III




Management Comments




                      84
Assistant to the Secretary of Defense for Nuclear
and Chemical and Biological Defense Programs
Comments




                       85
86
87
88
89
Final Report
 Reference




Page 59




               90
Program Manager for Assembled Chemical
Weapons Alternatives Comments




                    91
92
93
94
95
96
97
98
99
100
101
102
103
104
105
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition and Technology Management prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Bruce A. Burton
John E. Meling
Rodney D. Britt
Shelly M. Farber
Melinda M. Oleksa
Jennifer Jezewski
Roberta C. Dameron
Kenneth H. Stavenjord
Peter C. Johnson
Chandra P. Sankhla
Jamie A. Bobbio
Jacqueline N. Pugh
